<html>
<title> - CENTENNIAL CHALLENGE</title>
<body><pre>[Senate Hearing 110-185]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-185
 
                          CENTENNIAL CHALLENGE 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   TO

   RECEIVE TESTIMONY ON S. 1253, A BILL TO ESTABLISH A FUND FOR THE 
       NATIONAL PARK CENTENNIAL CHALLENGE, AND FOR OTHER PURPOSES

                               __________

                             AUGUST 2, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources

                     U.S. GOVERNMENT PRINTING OFFICE

38-893 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



























               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel, K., U.S. Senator from Hawaii.................     1
Barrasso, Hon. John, U.S. Senator from Wyoming...................     4
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     2
Bomar, Mary, Director, National Park Service, Department of the 
  Interior.......................................................     6
Buchholtz, Curt, President, National Park Friends Alliance, Estes 
  Park, CO.......................................................    28
Burr, Hon. Richard, U.S. Senator from North Carolina.............     3
Cipolla, Vin, President And Chief Executive Officer, National 
  Park Foundation................................................    19
Kiernan, Tom, President, National Parks Conservation Association.    23
Salazar, Hon. Ken, U.S. Senator From Colorado....................     5

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    39

                              Appendix II

Additional material submitted for the record.....................    49


                          CENTENNIAL CHALLENGE

                              ----------                              


                        THURSDAY, AUGUST 2, 2007

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

 OPENING STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM 
                             HAWAII

    Senator Akaka. Good afternoon.
    Ms. Bomar. Good afternoon.
    Senator Akaka. Today, the Subcommittee on National Parks 
will receive testimony on S. 1253, the administration's 
Centennial Challenge Initiative for the National Park Service, 
which Senator Bingaman and I introduced by request earlier this 
year.
    The Centennial Challenge is one of the most ambitious 
national park funding proposals put forward in recent years. 
For that, I congratulate Secretary Kempthorne and Director 
Bomar for your efforts to secure additional funding for our 
national parks.
    While I have questions about how this initiative will be 
implemented, and concerns with some provisions in the bill, I 
strongly support any efforts to increase funding for our 
national parks. So, I hope to use this hearing as an 
opportunity to explore and discuss possible changes that will 
help this effort move forward.
    Originally, I had intended to hold an oversight hearing to 
examine the state of the national park system before holding a 
hearing on the Centennial Challenge legislative proposal. 
However, after talking to the Director--we had a great first 
meeting--and talking to her last month, I agreed to move up the 
hearing on S. 1253 so that we could get this scheduled before 
the August recess. So, here we are. However, I hope we can use 
this hearing to address some of the general park oversight 
issues, as well.
    Among the key issues in S. 1253 that we will need to 
address is the question of whether the bill will need to be 
offset; and, if so, whether those offsets--what those should 
be. As proposed by the administration, S. 1253 would provide 
for up to $1 billion in new direct spending over the next 10 
years as a match to donations received by the Park Service. 
Although Interior Department officials have previously stated 
that the administration's budget proposal was offset, many of 
those revenue assumptions are not likely to be approved, and 
the bill itself is not offset, so we will need to address that 
issue.
    I understand that the Park Service hopes to finalize its 
initial list of signature projects and programs that would be 
funded by this bill sometime later this month. The question of 
how to determine which project should receive funding, and how 
to balance congressional and agency approval of these projects, 
is another key issue we will need to resolve. While I have 
concerns with some of the specific provisions in this bill, I 
support its overall goal and look forward to working with the 
Director and my colleagues on the committee to see if we can 
find a way to move it forward.
    Last week, the committee approved the Republican members' 
selection of Richard Burr as the new ranking member of the 
subcommittee. I'm so happy to know that, and look forward to 
working with him. Senator Burr will be here, and I thought I'd 
move forward here, and, when he comes, he will be able to 
present his statement. I want him to know that I'm looking 
forward to working with him and hope that we can continue the 
long bipartisan tradition of this subcommittee.
    So, at this time, I'd like to call on the chairman of the 
energy and interior committees, Mr. Bingaman--Senator Bingaman, 
for his statement.

 STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW MEXICO

    The Chairman. Thank you very much, Senator Akaka, for 
having the hearing. I welcome the Director here. This is very 
important issue. I'm glad that you were able to schedule this 
hearing today, before Congress leaves for the August recess.
    I do think that this Centennial Challenge proposal has a 
lot of merit in concept. I very much like the proposal, and 
support what the Secretary and the Director are trying to do 
here, in obtaining significant long-term funding increases for 
our national parks, which is certainly something that's 
definitely needed. I think you and I have both been here long 
enough, Senator Akaka, to know that accomplishing this isn't 
always that easy. I remember the debates and problems we had in 
trying to pass the CARA bill, some time ago. I proposed in that 
a bill that included funding for various conservation programs. 
There was 150 million each year in there, and new direct 
spending authority for the national parks. We got the provision 
out of this committee, but we were not able to overcome 
objections on the Senate floor and proceed to pass it.
    Let me just mention two or three concerns that I do have. 
I'm not able to stay for your full hearing, but I just wanted 
to make a record of these concerns.
    Some of the specific authorities in the bill, and how they 
would be implemented, is one concern. I think the bill does 
leave a great deal of discretion to the administration in 
determining funding needs. I hope that we can be more specific 
about the criteria that is involved. The way I read it now, the 
standard is that they can fund any project or program the 
Director identifies as one that will preserve the national 
parks for another century of conservation, preservation, and 
enjoyment. That's pretty broad. I hope we can be more specific.
    Next concern would be that additional funding for the 
Centennial Challenge obviously can't come at the expense of the 
other ongoing needs of the Park Service, and that's something 
that I think you alluded to in your comments, as well.
    The final point that I would make--and I think this is 
something that maybe the Director will speak to--is we need to 
really be very sure that setting up this program that 
contemplates significant increases in private philanthropy does 
not open the door for increased pressure to have corporate 
sponsors of our various parks and park facilities. I think 
that's an issue that we've debated around here before. I 
remember when we had the debate a few years ago about 
advertising on the National Mall, and concerns there. I think 
the Senate voted, with a fairly large bipartisan vote, to 
prohibit that in the future, at least when it occurred in that 
instance. The donor recognition standards that the Park Service 
has adopted, I think that we need to be sure that those are not 
undermined.
    So, let me stop with that. Again, thank you for having the 
hearing. I'm sorry I'm not able to be here for the entire 
hearing, but appreciate the chance to make this statement.
    Senator Akaka. Thank you very much, Chairman Bingaman, for 
your statement.
    As I look here, I--it seems as though this is a hearing of 
the Bs. We've just heard from Bingaman, and we will hear from 
Burr, and, following the members, we'll hear from Bomar. But, 
before Bomar, we'll hear from Barrasso.
    [Laughter.]
    Senator Akaka. So, here we are----
    The Chairman. Senator Salazar, that's the one exception.
    [Laughter.]
    Senator Burr. We weren't going to let him speak.
    [Laughter.]
    Senator Akaka. But I'm delighted to call, next, on our new 
ranking member, Senator Burr, and we're delighted to have him. 
Then, too, this is the first--I think I'm correct--first 
meeting that we're having with Director Bomar, too. So, here we 
are.
    Senator Burr.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. More importantly, 
thank you for the very warm welcome. My apologies for my 
tardiness. I welcome the Director, as well.
    It's great to be a part of a Subcommittee that really 
treasures our national treasure, and that's our parks. The 
agenda for today's hearing includes only one bill, S. 1253, the 
National Park Centennial Challenge Fund Act. It's unusual for 
this subcommittee to devote an entire hearing to a single bill. 
I'm not sure that it's happened while I'm here. But it's most 
appropriate, in this instance, because the bill has the 
potential to improve visitor services and park operations in 
many ways, in many years to come.
    The years leading up to the centennial, in 2016, are a time 
to reflect on the past as we prepare for the future. When 
Woodrow Wilson signed the Organic Act, on August 25, 1916, he 
created a new bureau with responsibility for 35 national parks 
and monuments. The mission of the new bureau was to conserve 
the scenery, the natural and historic objects and the wildlife, 
and leave them unimpaired for the enjoyment of future 
generations. We have the same charge.
    In the ensuing years, the number of units has grown from 35 
to 391. This increase has created a challenge to abide by the 
mandate to maintain parks unimpaired for the enjoyment of 
future generations. The Centennial Challenge Fund will help the 
National Park Service achieve that mandate of all 391 units.
    Senate bill 1253 outlines a new and creative way to fund 
Federal projects. The program will combine appropriated funds 
with matching private dollars, something I hope this Congress 
uses in other areas--as I have suggested, already, in 
education. This method of funding if successful, could be a 
model for other funding projects with special needs. However, 
we must also ensure that this legislation does not conflict 
with existing policies regarding donations and fundraising 
established in Director's Order 21. The witnesses here today 
can help us to find a way to avoid that potential conflict.
    In closing, Mr. Chairman, I believe it's important to 
remember that national parks are an American treasure that 
preserve and interpret the history of our Nation. Other 
countries have tried to emulate this program, but none have 
come close to achieving the quality and the diversity of 
America's national park system. The bill under consideration 
today will help the National Park Service maintain its status 
as a world leader in natural and cultural resources and 
stewardship.
    I want to thank the Chair. I know his commitment is strong 
to our national parks, as was his previous ranking member, who 
we all miss. I look forward to working with the Chairman, as 
well as the other Senators on this subcommittee, and Senators 
at large that have interest, to make sure that we find the 
appropriate way to move forward.
    I thank the Chair.
    Senator Akaka. Thank you very much, Senator Burr.
    To follow the early bird order here, I'm going to call on 
Senator Barrasso for your statement, and it'll be followed by 
Senator Salazar.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I'm 
looking forward to serving on this subcommittee.
    The Secretary stopped by my office yesterday to drop off 
``The Future of America's National Parks.'' You're shown there 
in the Easter Egg Roll at the White House. Looks like a great 
event. Looking through this, the pictures are beautiful, but 
the words tell a wonderful story. There's an incredible 
timeline here, Mr. Chairman, with 1872--Yellowstone is created 
when Congress sets aside 2.2 million acres of wilderness to be 
forever, quote, ``a public park or pleasuring ground for the 
benefit and enjoyment of the people.'' Then, it's not for 
another 44 years that the National Park Service was created. 
So, the record can accurately reflect that Wyoming has been 
involved in this even before the Federal Government, and I look 
forward to working as a member of this committee and working 
with you.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much.
    Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Akaka. It's 
an honor and pleasure to sit on this subcommittee with you. 
Welcome, to Senator Burr, as the new ranking member. I very 
much look forward to working with him as we work together to 
protect the Nation's treasures under our park system.
    I want to also welcome you here for the first time, 
Director Bomar.
    Ms. Bomar. Thank you.
    Senator Salazar. I look forward to working with you on the 
parks issues, not only in Colorado, but all around the country.
    I also want to extend a special thank you to Curt 
Buchholtz, who hails from Colorado and is here with us today. 
Curt is a great champion of the parks in our State and he knows 
full well how important these parks are to Colorado and to our 
Nation.
    On several occasions, I have shared with Secretary 
Kempthorne and with Director Bomar my pleasure with the 
enthusiasm that they are showing for the National Park 
Centennial, in 2016. The Centennial Challenge, if done right, 
is a great opportunity to revitalize our parks and restore the 
Nation's fascination with these treasures over the American 
landscape.
    We have 12 National Park Service units in Colorado, of 
which we are very proud. My history in association with the 
creation of those parks is something that I will always 
treasure.
    Today, we will discuss S. 1253, the administration's 
proposal to match up to $100 million in private donations with 
Federal dollars. If combined--and I say ``if combined''--with a 
sustained increase in the annual operations and maintenance and 
education and construction accounts by the Federal Government, 
by this Congress and in the administration's budget, this 
concept has promise. We clearly have to resolve a number of 
issues, however, if this is to work. There is no offset in the 
administration's bill that--to tell us how we're going to pay 
for it, and it is not clear to me what the public's role, or 
Congress's role, is in guiding the selection of the signature 
projects. We need to consider what impacts this will have on 
other Park Service accounts, friends groups, and existing 
philanthropic initiatives that now support our national park 
system.
    These are not insurmountable barriers to overcome, and I 
look forward to working with you, Director Bomar, and----
    Ms. Bomar. Thank you.
    Senator Salazar [continuing]. With Secretary Kempthorne, to 
see how we can overcome these barriers.
    I want to just briefly discuss a bill, that I will be 
introducing shortly, that will be part of our Centennial 
Challenge. It'll be a bill that will allow schools and local 
education agencies to partner with the Park Service to bring 
more rangers into classrooms and more kids into parks. The bill 
will create a grant program through which schools that partner 
with the Park Service can compete for up to $25,000 that can go 
toward curriculum development, teacher training, visits to 
parks, and other initiatives taken in conjunction with the Park 
Service.
    The bill will go through the HELP Committee, but because it 
pertains to the Centennial Challenge and our parks, I wanted to 
raise it in this hearing, and make sure that I brought it to 
your attention, Director Bomar.
    It is, in many ways, not dissimilar to a program I started 
in Colorado, now some 17 years ago, called the Youth and 
Natural Resources Program. It's a program where we ended up 
bringing thousands of young men and women into our parks and 
wildlife programs in the State of Colorado. I always saw that 
effort as achieving two very important goals. The first goal 
was to educate young people about some of the treasures that we 
had in parks and wildlife in my State of Colorado. The second, 
frankly, is these young people became a great part of our work 
force, helping us in the summer in all of our facilities in 
Colorado. I hope to be able to work with you on, not only this 
legislation that I'm proposing, but also in efforts that are 
similar to that.
    Thank you, Mr. Chairman. I appreciate the opportunity to 
comment.
    Senator Akaka. Thank you very much, Senator Salazar.
    Our first witness this afternoon is the Honorable Mary 
Bomar, Director of the National Park Service. This is your 
first appearance, and we're happy to have you here at the 
committee. Director Bomar, we'll include your entire written 
statement in the record, so please feel free to summarize your 
testimony. Please proceed with your statement, then we'll have 
a round of questions.

   STATEMENT OF MARY BOMAR, DIRECTOR, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Ms. Bomar. All right. Thank you very much, Senator Akaka.
    Mr. Chairman, thank you for the opportunity to appear 
before you today to present the Department of Interior's views 
on S. 1253, a bill to establish a fund for the National Park 
Centennial Challenge.
    The Department strongly supports enactment of S. 1253, 
which is one of Secretary Kempthorne's top priorities. We are 
grateful to you, Mr. Chairman, and to Senator Bingaman, for 
sponsoring this legislation, and we look forward to continuing 
to work with you as S. 1253 moves through the legislative 
process.
    S. 1253, along with other components of the Centennial 
Initiative, offers the greatest prospect for re-engaging the 
American public with their national parks and rejuvenate their 
pride in ``the best idea America ever had''; increasing the 
capacity of the national park system through increased funding 
to meet the needs of the next century; and recruiting, 
retaining, training, and preparing the next generation of 
leaders for our parks.
    Secretary Kempthorne and I are excited about partnering 
with the American people on innovative projects and programs 
that will capture the imagination of the public and that will 
welcome and inspire the generations who will inherit the great 
national treasures under our stewardship.
    The Centennial Initiative would not only provide vital 
funding for the national parks, but would also provide more 
avenues for Americans to become involved in their national 
parks and the legacy they represent.
    National parks are special places that unite us all as 
Americans, and it is our shared responsibility to preserve them 
for generations yet to come. The Centennial Initiative is a 
true reflection of that sentiment.
    The Centennial Initiative proposes $3 billion in new funds 
for the National Park Service over the next 10 years. Of that 
amount, $1 billion is for the Centennial Commitment--100 
million in additional annual appropriations for each of the 
next 10 years. Congress has already taken steps toward approval 
of that funding, for which we are grateful.
    The other $2 billion would come from what we call the 
Centennial Challenge: the challenge to individuals, 
foundations, and businesses to contribute at least $100 million 
annually to support signature projects and programs. Each year, 
$100 million in donations would be matched by $100 million of 
Federal funding for the National Park Service Centennial 
Challenge Fund, the mandatory spending fund that would be 
established under S. 1253.
    The President asked for a report on implementation of the 
Centennial Initiative by May 31, 2007. Secretary Kempthorne and 
I led the Department and the National Park Service to reach out 
to the American public and listen to their ideas for our 
national parks. With ideas from more than 40 listening sessions 
throughout the Nation, and from further discussion among park 
managers and staff, five overarching goals emerged. They are 
articulated in the Secretary's report, May 31, ``The Future of 
America's National Parks.''
    Our efforts are now focused on two fronts. First, each park 
superintendent and program manager has been asked to complete 
an implementation strategy this summer that describes their 
vision and desired accomplishments for their individual areas 
to support the five overarching goals.
    Second, across the service, park employees and partners are 
working together to propose centennial projects and programs 
for 2008 and 2009. Secretary Kempthorne and I plan to report on 
the individual park plans and programs and centennial 
implementation strategies, and announce the centennial projects 
and programs approved for funding consideration for 2008 in 
late August, this month.
    The Centennial Challenge Fund would build on a long 
tradition of philanthropy in our national parks, from donations 
of land by the Rockefeller family to the coins given by 
schoolchildren to help restore the Statue of Liberty. In the 
outreach we conducted this past spring, we found broad public 
support for the idea of financing projects through a public/
private match, and we found the ``challenge'' approach to 
fundraising to be a familiar concept. The possibility of 
matching funds has excited our partners and enticed new donors, 
and we have every indication that we will readily raise more 
than $100 million a year necessary for the $100-million annual 
Federal match.
    Mr. Chairman, thank you, sir, for being so kind and having 
us here today. Again, we appreciate your leadership on this 
legislation. We stand ready to work with you to ensure that the 
legislation is approved by Congress in a timely way, to help 
ensure that our national parks--our national treasures--are in 
top condition when we begin our second century of stewardship, 
in 2016.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions that you or members of the 
committee have.
    Thank you.
    [The prepared statement of Ms. Bomar follows:]

 Prepared Statement of Mary A. Bomar, Director, National Park Service, 
                 Department of the Interior, on S. 1253
    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the Department of the Interior's views on S. 1253, a 
bill to establish a fund for the National Park Centennial Challenge, 
and for other purposes.
    The Department strongly supports enactment of S. 1253. As the 
committee is aware, this bill--an Administration legislative proposal--
is one of Secretary Kempthorne's top priorities. We are grateful to 
you, Mr. Chairman, and to Senator Bingaman for sponsoring this 
legislation, and we look forward to continuing to work with you as S. 
1253 moves through the legislative process. Secretary Kempthorne and I 
are very excited about partnering with the American people on 
innovative projects and programs that will capture the imagination of 
the public and that will welcome and inspire the generations who will 
inherit the great national treasures under our stewardship.
    S. 1253, along with other components of the Centennial Initiative, 
offers the greatest prospects for fulfilling what I believe are the 
three most important goals for the National Park Service:

  <bullet> Re-engaging the support of the American people for the 
        National Parks and rejuvenating their pride in ``the best idea 
        America ever had,'' in the famous words of a British diplomat;
  <bullet> Increasing the capacity of the National Park System, through 
        increased funding, to meet the needs of a changing population; 
        and
  <bullet> Recruiting, retaining, training, and preparing a new 
        generation of leadership for the National Park Service.

    The Centennial Initiative would not only provide vital funding for 
the national parks, but also provide more avenues for Americans to 
become involved in their national parks and the legacy they represent. 
National parks are special places that unite us all as Americans, and 
it is our shared responsibility to preserve them for generations yet to 
come. The Centennial Initiative is a true reflection of that sentiment.
    In preparing for the National Park Service's second century of 
stewardship, it is worth noting the growth and change that has occurred 
since the National Park Service was first established. In 1916, the 
Department of the Interior oversaw 14 national parks, 21 national 
monuments, and two land reservations--all of which had been set aside 
for conservation purposes during the 19th and early 20th centuries. 
However, these areas were not managed in a systematic way, nor was 
their preservation assured, until Congress passed the National Park 
Service Organic Act, which not only established a new agency 
responsible for these units, but also directed the National Park 
Service to ``conserve the scenery and the natural and historic objects 
and the wild life therein and to provide for the enjoyment of the same 
in such manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.''
    While the fundamental mission of the National Park Service has 
remained the same for 90 years, our responsibilities have grown in size 
and breadth. Several new parks and monuments were added in the 1920's, 
including parks in the East, and in 1933, a major governmental 
reorganization transferred responsibility for 44 historical areas to 
the National Park Service. Two Executive Orders in 1933 clarified that 
the National Park Service has a responsibility to care for historical 
as well as natural areas, making the National Park System truly 
national in scope. Two years later, Congress confirmed the National 
Park Service's role as the leading Federal agency in this field with 
passage of the 1935 Historic Sites Act that led to the National 
Register of Historic Places and National Historic Landmark 
designations.
    The 1950's, 1960's, and 1970's saw the expansion of the National 
Park System to include national recreation areas, including those in 
large urban areas. Fifty-two historical areas were added between 1952 
and 1972. During the 1950's, the National Park Service launched 
``Mission 66,'' a ten-year effort to upgrade park facilities as the 
National Park Service approached its 50th anniversary in 1966. In 1980, 
the establishment of large expanses of land in Alaska as national park 
areas doubled the acreage under the management of the National Park 
Service. Along with continued growth, the conservation mission of the 
National Park Service was reaffirmed and strengthened in the 1970 
General Authorities Act, which formally recognized all the lands 
administered by the National Park Service, regardless of their title, 
as part of one National Park System.
    During the 1980's and 1990's, Congress added more units, mostly 
historic sites, including many that reflect the diversity of our 
nation, such as Manzanar National Historic Site, where Japanese 
Americans were held during World War II and Brown v. Board of Education 
National Historic Site, commemorating the Supreme Court decision on 
school segregation. Many sites across the country expanded interpretive 
services to appeal to diverse demographic groups and some began 
providing bilingual exhibits and information. Parks were made more 
accessible to the disabled. National Park Service programs that assist 
or advise communities, such as Rivers and Trails and National Heritage 
Areas, added more responsibilities.
    Today, the responsibilities of the National Park Service include 
administering 391 park units along with multiple programs across a 
broad spectrum that help conserve our nation's natural, cultural, and 
historical resources. The Service has more than 22,000 employees and an 
FY 2007 budget of $2.3 billion. Since 2000, our emphasis has been on 
taking better care of the resources under our stewardship, which has 
included a major effort to reduce the backlog of deferred maintenance 
in our parks as well as to complete documentation and enhance 
management of natural resources under the umbrella of the Natural 
Resource Challenge. We have stressed developing partnerships to 
facilitate conservation, that includes the initiation of the Preserve 
America program. The boldest and most comprehensive initiative of this 
era, however, is the one that is the subject of today's hearing.
    The legislative proposal before you was developed following the 
Presidential directive that was announced on August 25, 2006, the 90th 
anniversary of the National Park Service. President Bush issued a 
memorandum directing Secretary Kempthorne to ``enhance our national 
parks during the decade leading up to the 2016 centennial celebration . 
. . [and] prepare them for another century of conservation, 
preservation and enjoyment.'' From that bold directive, the Department 
developed the multi-year Centennial Initiative, which was presented in 
February as part of the President's FY 2008 Budget.
    The Centennial Initiative proposes $3 billion in new funds for the 
National Park Service over the next ten years. Of that amount, $1 
billion is the ``Centennial Commitment''--$100 million in additional 
annual appropriations for each of the next ten years. The other $2 
billion would come from the ``Centennial Challenge''--the challenge to 
individuals, foundations, and businesses to contribute at least $100 
million annually to support signature programs and projects. Each year, 
$100 million in donations would be matched by $100 million of Federal 
funding from the National Park Centennial Challenge Fund, the mandatory 
spending fund that would be established under S. 1253.
    We greatly appreciate the support Congress has already shown for 
the Centennial Commitment portion of the Initiative. Both the House-
passed and the Senate committee-approved versions of the FY 2008 
Interior appropriations bill contain the $100 million in additional 
operations funding identified in the President's Budget as Centennial 
Initiative funding. Including the centennial funding, total operations 
funding for FY 2008 would increase by $199 million under the House-
passed version over the FY 2007 level, and by $196 million under the 
Senate committee-reported version. Enactment of operations funding in 
that range would mean that all parks would receive enough funding to 
cover fixed costs in FY 2008, and many would also receive more seasonal 
rangers, more maintenance funding, and more resource protection 
funding, all of which would better enable parks to provide visitors 
with safe, enjoyable, and educational experiences.
    The President asked for a report on implementation of his August 
24, 2006 directive by May 31, 2007. To begin the process of determining 
signature programs and projects, Secretary Kempthorne led the 
Department and the National Park Service in an unprecedented effort to 
reach out to the American public to listen to their ideas for future 
goals for the national parks as we move toward the 100th anniversary. 
During March and April, after planning 12 listening sessions, we 
expanded to more than 40 sessions throughout the nation after the 
initial sessions generated such excitement among the American people as 
well as National Park Service staff. Some of them were led by the 
Secretary and me personally. We also took comments through our website 
and by mail; in total, we heard from more than 4,500 people. From these 
sessions, and from further discussion among park managers and staff, 
five overarching goals emerged. They are articulated in the Secretary's 
May 31 report, The Future of America's National Parks, as follows:

  <bullet> Stewardship.--The National Park Service will lead America 
        and the world in preserving and restoring treasured resources;
  <bullet> Environmental Leadership.--The National Park Service will 
        demonstrate environmental leadership to the nation;
  <bullet> Recreational Experience.--National parks will be superior 
        recreational destinations where visitors have fun, explore 
        nature and history, find inspiration, and improve health and 
        wellness;
  <bullet> Education.--The National Park Service will foster 
        exceptional learning opportunities that connect people to 
        parks; and
  <bullet> Professional Excellence.--The National Park Service will 
        demonstrate management excellence worthy of the treasures 
        entrusted to our care.

    The report established these goals not only as the foundation for 
decisions about specific projects and programs, but also to guide the 
work of the National Park Service as we work toward our centennial in 
2016. The report also identified specific performance goals within each 
overarching goal, and gave examples of actions that would fulfill those 
goals.

    Our efforts at the present time are focused on two fronts: first, 
each park superintendent and program manager has been asked to complete 
an implementation strategy this summer that describes their vision and 
desired accomplishments for their individual areas to support the five 
overarching goals. Second, parks and their enthusiastic partners are 
working together to propose centennial projects and programs for 2008 
and 2009. The projects and programs proposed for 2008 are being 
evaluated in terms of the criteria that were finalized in June. At the 
Secretary's request, the Inspector General is engaged in conducting 
critical point evaluations of how we intend to implement the Centennial 
Challenge. In particular, he has highlighted the issues of transparency 
in the project and program selection process and financial 
accountability.
    Secretary Kempthorne and I plan to report on the individual park 
and program centennial implementation strategies, and announce 
centennial projects and programs approved for funding consideration for 
2008 at the end of August.
    The criteria adopted in June require that all proposed projects and 
programs:

  <bullet> provide for authorized activities in existing units;
  <bullet> contribute toward at least one of the five centennial goals;
  <bullet> be consistent with our management policies and planning and 
        compliance documents;
  <bullet> require little or no additional National Park Service 
        operating funds to be sustainable; and
  <bullet> have partners willing to contribute at least 50 percent of 
        the project cost in cash from non-Federal sources.

    Beyond those basic requirements, projects and programs are being 
evaluated by National Park Service interdisciplinary review teams. 
Projects approved for 2008 will be analyzed to ensure that the programs 
and projects represent a mix of different emphasis areas--the five 
centennial goals, different-sized parks, different-sized projects, 
multiple park projects, national initiatives, and a mix of projects and 
programs. We have been very clear in our quest for a diversity of 
centennial undertakings; this is by no means strictly about ``bricks 
and mortar'' construction projects. There will be opportunities to 
consider more bold and innovative projects and programs in future 
years, as parks and their partners rise to the challenge. Over time, 
the list will be updated to add new projects and programs and remove 
completed ones. We look forward to working with you to identify such 
projects and programs.
    S. 1253 would assure the funding that is needed to pay for projects 
and programs, once they have been selected. This legislation would 
establish a U.S. Treasury fund known as the National Park Centennial 
Challenge Fund. It would encourage private donations for signature 
projects and programs in national parks by matching those donations 
with Federal funds of up to $100 million from FY 2008 through FY 2017. 
The Fund would be available to the Secretary without further 
appropriation and with no fiscal year limitations. The increase in 
mandatory spending could be offset by other mandatory savings proposals 
within the President's Budget, although the Administration's proposal 
did not include specific offsets.
    Soliciting for Challenge Fund donations would be done primarily 
through the National Park Foundation and local friends' groups. The 
legislation specifies that National Park Service employees would be 
subject to current rules about soliciting and receiving donations.
    The Centennial Challenge Fund would build on a long tradition of 
philanthropy in our national parks--from donations of land by the 
Rockefeller family to the coins given by school children to help 
restore the Statue of Liberty. The challenge component was first 
developed in collaboration with philanthropic, non-profit and private 
groups. In the outreach we conducted this past spring, we found broad 
public support for the idea of financing projects through a public-
private match, and we found the ``challenge'' approach to fundraising 
to be a familiar concept. The possibility of matching funds has excited 
our partners and enticed new donors, and we have every indication that 
we will readily raise more than $100 million a year necessary for a 
$100 million annual Federal match.
    As Secretary Kempthorne said in his report to the President, ``the 
golden years for the national parks have not passed, but are ahead.'' 
Mr. Chairman, we again thank you for your leadership on this 
legislation. We stand ready to work with you to ensure that this 
legislation is approved by Congress in a timely way, to help ensure 
that our national parks--our national treasures--are in top condition 
when we begin our second century of stewardship in 2016.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.

    Senator Akaka. Thank you very much, Director Bomar.
    I'd like to begin with a general question----
    Ms. Bomar. Yes, sir.
    Senator Akaka [continuing]. Before turning to some of the 
specific issues in your legislative proposal.
    In your opinion, what is the greatest challenge, or threat, 
facing the National Park Service right now? To what extent will 
your Centennial Initiative address this challenge?
    Ms. Bomar. I think--as you know, Senator Akaka, I come from 
the field--that one of the biggest challenges that we face 
today is operational funding, but we also have a great 
opportunity--we have 174 friends groups that work in great 
partnership with our national parks across America--and we 
feel, together, that, through a public/private partnership, as 
well as the additional operational funds, we have some 
wonderful opportunities. But we've heard the superintendents, 
loud and clear, the challenge is operational funding. Over 
decades, the funding has eroded. The 2008 President's budget 
would bring 3,000 seasonal employees into the national parks to 
give interpretive programs, to give better services. There 
would be 1,000 in maintenance, 1,000 in interpretation, and 
1,000 in resource protection and law enforcement for the parks.
    We heard the park employees and the American public, loud 
and clear, on what they felt was needed to take us to the 21st 
century, as well as what avenues we should be looking at. It 
certainly is the operations of the National Park Service.
    Senator Akaka. As you've noted in your written statement, 
S. 1253 does not include any offset for the $1 billion in 
mandatory spending in the bill. I understand that the 
Department's budget did propose various offsets, although many 
of those are not likely to be enacted. Will the administration 
support enactment of this bill without an offset?
    Ms. Bomar. The President's budget, Senator Akaka, for FY 
2008, does recommend some mandatory proposals. I would hope 
that wouldn't be a barrier for us, that we could work this 
through--I'd like to continue a dialog. I have a list of the 
mandatory proposals in the President's budget that I'd like to 
present to you today. But I would really like to continue to 
discuss this--I just feel shame on us if we can't work through 
this issue together. I'm sure we can, sir.
    Senator Akaka. Many of the national park units in my State 
are relatively small sites that are of great cultural and 
historical significance. While many of these sites have a very 
positive relationship with a local cooperating association, 
they don't all have the benefit of a large fundraising 
partner----
    Ms. Bomar. That's right.
    Senator Akaka [continuing]. Like some of the larger 
national parks do. What steps are you going to take to ensure 
that a historical park, such as Kaloko-Honokohau or Pu'uhonua o 
Honaunau is able to compete for funding on an equal footing 
with a large national park, such as Grand Canyon or Yosemite 
or--that has an active fundraising group?
    Ms. Bomar. We say, with the Centennial Challenge, the 
beauty of it, Senator, is that there are no winners and losers. 
Everybody's a winner with this, including small and medium 
parks. One thing that we have put in place is to make sure that 
we have solid criteria for selection of the centennial 
projects. We have two review teams that are in, this week--one 
to review projects, one to review programs. They are some of 
the finest subject-matter experts working in the National Park 
Service. There is screen-out criteria and also evaluation 
criteria, so--to make sure that we address, what some might 
say, the have-nots--that provide for authorized activities 
within a national park contribute toward at least one of the 
five centennial overarching goals, as stated in the ``Future'' 
document that you've seen; be consistent with all Federal 
department regulations; but also that--we want to make sure 
that large, small, and medium parks are considered, and that, 
through many of our partnerships and friends, the National Park 
Foundation, we will identify, through--going through the 
project submittal process, whether they have a partner or not. 
We have a book in front of me today that has over $300 
million--it's actually $301 million worth of funding in 
partnership letters that have come in from all over the States; 
317 letters offering a commitment for funding. Many of those 
reach across a wide spectrum of parks--large, medium, and 
small.
    For parks that don't have partners, their projects have 
been put into a separate pool. That will be a pool that will 
not, probably, fit into 2008-2009, but we look to the National 
Park Foundation, and many other partners, to help fund the 
smaller parks. The beauty of the matching funds is that any 
donations that are taken in at the national parks--they can 
have a donation box, which many of them do--where they have a 
project, a centennial project, described on that donation box 
would be eligible for funding under this program. We are trying 
to make sure that we have a fair and balanced across-the-board 
spectrum of projects selected for the centennial, sir.
    Senator Akaka. Thank you very much.
    I'd like to now call on Senator Burr for his questions.
    Senator Burr. Thank you, Mr. Chairman. Again, welcome, 
Director.
    Ms. Bomar. Thank you.
    Senator Burr. Two billion in discretionary money is a huge 
amount of money in one pot. I think I can use your answer to 
the Chairman's question on challenges to envision that those 
are your priorities. Let me ask you, do you intend to use this 
fund for land acquisition?
    Ms. Bomar. There will be a separate pool for land 
acquisition. No, again, coming back to what the superintendents 
told us that their greatest need was, it was for operations of 
the national parks. It'll be for projects and programs within 
the national parks. Down the road, there could be some land 
acquisition involved; for example Flight 93 is a priority right 
now to the Department, sir. But, at the moment, we are focusing 
on the operations of the National Park Service. Some land 
within boundary from willing sellers, there could be some of 
that.
    Senator Burr. How will projects that are funded under the 
Centennial Challenge be selected? Who's going to be involved in 
that selection process?
    Ms. Bomar. This started with the 40 listening sessions and 
the 5 overarching goals that were developed--the 
recommendations that we heard at the 40 listening sessions, 
from the America public. All those ideas have been assessed by 
the parks, and most of them really fit within the mission of 
the National Park Service, and how the parks can be kept 
vibrant for the next 100 years. All those projects were put, 
through the parks, into a database. They are now going through 
our review process. They will be selected by the National Park 
Service, and will be brought to Congress for review. That also 
will be an opportunity for dialog, sir.
    Senator Burr. The National Park Foundation is chartered by 
Congress.
    Ms. Bomar. Yes, sir.
    Senator Burr. What do you see the role of the National Park 
Foundation being in implementing the Centennial Challenge?
    Ms. Bomar. They are a vital partner of ours. They are the 
only legally, as we've said, congressionally mandated arm for 
fundraising for the National Park Service. Vin Cipolla is here 
today, and you'll hear from him later, I think. He has been 
building the capacity of the National Park Foundation for the 
last 2 years. He has a great staff in place. But their role is 
to also step up--which Vin will talk about, today, to you--and 
help fundraise for many parks, many programs, such as the 
Junior Ranger Program and other educational programs, in many 
areas.
    Senator Burr. You've alluded to it. Many national parks 
have friends groups that raise money----
    Ms. Bomar. Yes, sir.
    Senator Burr [continuing]. For special projects, organize 
volunteers--truly there to assist the park, I think.
    Ms. Bomar. Yes.
    Senator Burr. They're accustomed to working side by side 
with park staff, in some cases, on projects funded by private 
donations. What do you see their role being as it relates to 
selecting and implementing projects that may be funded under 
the Centennial Challenge?
    Ms. Bomar. They will be involved as donors. I think the 
beauty of this program is that this is the first time, in such 
a concentrated effort, that we've had these listening sessions 
and that we've gone out to our parks and said, What are our 
opportunities? When we see the implementation strategy plans 
that come back from the parks--there are 391 units that are 
preparing their vision--there might be things out there we have 
not thought of, where the National Park Foundation could match 
up donations to those needs, such as more efficient light bulbs 
under the energy and environmental leadership goal. There could 
be a donor that they could match to that particular need. So, I 
think that they are going to see many opportunities that we 
haven't thought about, with donors.
    The American public love their national parks and really 
want to be involved in their stewardship. I'm a huge fan--we 
all are--of working with partners. But, also, I think there are 
partners there that want to give to the National Park Service. 
When you read through some of these letters that have come in 
from American individuals, from the public, not just from 
companies, corporations, government, and States, you see that 
they want to give something back to their parks.
    So, I think, Senator Burr, there are going to be many 
opportunities that we haven't thought about, so we will work 
very closely, hand in hand, as we have been doing, with the 
Park Foundation, and we'll see what projects they can fund for 
us. They are actually putting a funding plan together, as 
well--that's my understanding.
    Senator Burr. As I said in my opening statement, I'm very 
supportive of this initiative of public/private----
    Ms. Bomar. Thank you.
    Senator Burr [continuing]. Partnerships. It strikes me--and 
the reason I take you through all of the different components 
of people who have interest----
    Ms. Bomar. Yes.
    Senator Burr [continuing]. In the park--and some of it's 
sweat equity, some of it's financial interest, some of it is a 
passion to raise money----
    Ms. Bomar. Yes.
    Senator Burr [continuing]. At some point, everybody's not 
going to be happy with what the choices were. Their priority 
might get left out. Senator Bingaman raised the issue that 
Congress may not be happy, because it may not be congressional 
priorities, necessarily, that get addressed.
    I just want to stress with you that, with this, comes a 
tremendous amount of accountability.
    Ms. Bomar. Yes, sir.
    Senator Burr. Though I think the effort is designed in a 
very positive win-win way--I think you described it--if that 
level of communication with stakeholders is not maintained, if, 
at any point, that pipe contracts, what is portrayed as a win-
win can turn into a fairly messy thing to deal with, as 
stakeholders that are there for the right reasons find reasons 
not to be stakeholders.
    Ms. Bomar. Right.
    Senator Burr. Let me ask one additional question, if I 
could. The Proud Partners Program is discussed in Director's 
Order 21.
    Ms. Bomar. Yes, sir.
    Senator Burr. Ford Motor Company is a Proud Partner. That 
gives them the right to market that role. If Toyota makes a 
donation to the Centennial Challenge Fund, does that put you in 
a difficult situation, based upon what you've agreed to in the 
Proud Partners Program and Ford's position in that?
    Ms. Bomar. We have accepted donations for some of our parks 
from Toyota. Vin Cipolla and others in the National Park 
Foundation are absolutely at the table with us when we do that. 
There is no endorsement from us on that. Vin could probably 
speak much more intelligently than I can, sir, to you on the 
Proud Partner Program, which he probably will----
    Senator Burr. I think you understand where I'm going.
    Ms. Bomar. Yes.
    Senator Burr. Are we locked into something that potentially 
locks folks out in the future, even though we're starting a new 
program that I think is extremely beneficial? Will we have the 
same tools to work with, or will we create a----
    Ms. Bomar. Yes.
    Senator Burr [continuing]. A potential conflict that might 
be difficult for everybody involved?
    Ms. Bomar. Right. I think, speaking in plain English to 
you, Senator, that the Proud Partner Program has been around 
for many years, and, yes, often exclusivity is an issue. Vin 
Cipolla and his staff have certainly recognized that and are 
working through that. We're glad to have the Proud Partner 
Program, but it is a new concept for us to come forward and ask 
for mandatory funding. But I'm very pleased to say that, 
working with the National Park Foundation under Vin Cipolla's 
leadership, we have a great partner that is willing to work 
with us and is very much onboard with the Centennial--very 
enthusiastic about the Centennial Initiative.
    Senator Burr. I thank you.
    I----
    Ms. Bomar. Thank you, sir.
    Senator Burr [continuing]. Yield, Mr. Chairman.
    Senator Akaka. Thank you, Senator Burr.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Following up on both the Chairman's comments and the 
ranking member I look at the issues of deferred maintenance, 
and I'm concerned with just deferred maintenance in the parks, 
in general. I see that in Grand Teton, in Yellowstone, and in 
other parks that I've visited. I've heard different figures as 
to how much really needs to be done in our parks across the 
whole system, and it's a number that I've heard, you know, well 
in excess of $100 million a year. I know it's not been fully 
inventoried. I don't know if you have some kind of a grasp on 
what you think that number is. I'm just trying to put all this 
into perspective.
    Ms. Bomar. Yes. You will often hear, for deferred 
maintenance, that it could be as high as $8 billion. However, 
we have just finalized comprehensive inventories of our parks 
for maintenance, and that figure would be to bring everything 
into perfect condition in our 391 units of the National Park 
System. Probably $1 billion of that is for critical 
infrastructure, such as sewerage.
    I applaud Congress and the President for staying focused on 
maintenance, including through using fee funding to improve our 
facility condition index. I think the President's mandate was 
$4.9 billion. We are now past $6 billion in spending on backlog 
maintenance--deferred maintenance. We'll continue to move 
forward in that program, sir.
    Senator Barrasso. That was my question. Based on this 
program, are we looking at all new programs, or is some to help 
with some deferred maintenance, as well, and how you view that 
distribution, if I could, please.
    Ms. Bomar. Yes. Coming back to the partnerships, and coming 
back to these letters of commitment--I will use the Ben 
Franklin Museum in Philadelphia as an example. My staff have 
heard me say it many times; it's a very easy project to get 
your hands around. There is an underground museum that is an 
$18-million project for renovation. On a daily basis, there are 
work orders for that museum. It hasn't been renovated since 
1976. That is one of the projects. Pew Foundation, Penn 
Foundation, Gerry Lenfest, and the Governor of Pennsylvania, 
have come in and said, ``We'll put $12 million up. You know, 
when is the Federal Government going to stand up, Mary, and put 
their Federal match against that?'' That would absolutely 
reduce the facility condition index by taking that off the 
deferred maintenance list. That, maybe, wouldn't rise right to 
the top of a regional priority list, but it is certainly within 
our maintenance backlog. So, absolutely--many of these projects 
will reduce, and eliminate, in some cases, deferred 
maintenance.
    Senator Barrasso. Mr. Chairman, that leads to my final 
question, which--as you said, the Ben Franklin Museum and the 
12 million Governor Rendell or others have said----
    Ms. Bomar. Two-to-one--two-to-one match, sir.
    Senator Barrasso [continuing]. When do you do the match? 
So, would the local fundraising that a community can do around 
a favored national park then put somebody else higher up on the 
line for that match, or is it--I'm trying to see how this match 
works, if you're just trying to collect all money, and it 
doesn't get into different boxes, well, this much is for 
Yellowstone, and this much for Teton, and you come in----
    Ms. Bomar. No. Because it will go through the screen- out 
and evaluation process as we review all those projects that 
come in to us. There are projects that we'll be looking at for 
2008, 2009, and then for future outyears. I have 17 years in 
the Park Service, Senator, and I've watched and worked with 
many partners through my whole tenure. I went through one of 
the largest urban redevelopments in Philadelphia when I was 
there, a $360-million project, and partners were glad to step 
in and help us in new construction and renovations. I really 
feel that's very true. It's happening here with us now in 
Washington, DC. It's that same mentality. We have some 
tremendous opportunities through the Centennial Challenge, as 
noted by our telephone ringing off the line and the fax going 
crazy.
    Senator Barrasso. Perhaps I didn't ask it right. Then, is 
there an assurance to that partner that the Federal Government 
will help them, or do they say, ``Well, put all this money up, 
and then we'll see where you shake out on this list'' as the--
--
    Ms. Bomar. That's right. They're going to have to compete. 
They will have to compete for that project. There will be no 
assurances until the project selection is done.
    Senator Barrasso. Mr. Chairman--and then, the competition 
will be based on the need of the project, not how much money 
that foundation----
    Ms. Bomar. No, sir----
    Senator Barrasso [continuing]. That's spending its----
    Ms. Bomar [continuing]. Absolutely not. Thank you, Senator. 
No, it's not going to be based on the big highrollers that are 
going to come in with funding. Are partners going to control 
and commercialize our parks? Absolutely not. That's why the 
criteria is very strict, and the process that we're going 
through is very careful. One of the things that Secretary 
Kempthorne had recommended was to bring the IG, the Inspector 
General, in up front instead of waiting for problems, maybe, 
later on. I don't want to be embarrassed. I don't want the 
National Park Service to be embarrassed, or the Department. I 
want to make sure that we're transparent, that we're credible 
in our selection process. The IG will sit with us along the way 
as we move through this process, and, at critical evaluation 
points, will come back and brief us, Senator.
    So, I think, when you look through the evaluation criteria 
and the way that the process in place is right now, and the 
review teams we have, I feel very comfortable with where we're 
at.
    Senator Barrasso. Thank you, Ms. Bomar.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Barrasso.
    I, finally, have two questions, Director.
    Ms. Bomar. Yes.
    Senator Akaka. I have worked with the National Park Service 
for many years to increase the diversity of American history 
that is presented to park visitors. One of the House companion 
bills has proposed funding education opportunities 
specifically, and I'm quoting, ``for persons under 18 years of 
age, particularly those from populations historically 
underrepresented among visitors to units of the national park 
system,'' unquote. What do you think about incorporating this 
requirement into the legislation?
    Ms. Bomar. Sir, the comments that came back to us through 
the listening sessions absolutely addressed just what you've 
talked about, about education and about diversity. It's not 
just about the diversity of our work force, which is addressed 
in professional excellence as one of our specific performance 
goals, but also in our visitors, that we are relevant and 
welcoming to our different cultures. The process we went 
through has been a great exercise for us in the National Park 
Service. Many of us were operating and still telling the 
stories the same way we did 20 years ago. We looked at a case 
for change--changing demographics, migration, high technology, 
today. All those things have said we must be relevant. Many of 
our parks today, sir, have programs presented to the visitors 
in 16 languages. New visitor centers coming onboard--many have 
10 to 15 languages now available to the visiting public.
    But, also, our staff should be diverse. One of the goals 
that we have set--and the Secretary has said this many times--
is that we want the National Park Service to be one of the top 
ten places in America to work, and that a second goal is to 
meet 100 percent of diversity recruitment goals by employing 
people who reflect the face of America. Our prior directors 
have said the same. There will be, in looking at the FY-2008 
budget, the centennial commitment of $100 million, part of 
which will be used to bring in 3,000 seasonal employees. We 
want to make sure that it's not business as usual, that it is 
used to get out and bring in the face of America. This is the 
first time that we've really had the opportunity to go out with 
a large recruitment effort and make a change.
    Senator Akaka. Many scientists recommend that we begin to 
implement strategies to increase the resistance and resilience 
of fish, wildlife, and plants to global warming. Some of these 
invaluable resources are located within park boundaries.
    Ms. Bomar. Yes.
    Senator Akaka. Do you envision addressing global warming in 
your initiative, particularly with respect to parks that may 
contain highly vulnerable fish and wildlife population?
    Ms. Bomar. Yes, sir. The Secretary has appointed a task 
force that will address three specific climate change goals. He 
has made this a very high priority. For years, we have a great 
gentleman working with us, Mike Soukup, who heads up our 
science division, and he has certainly been a leader in many of 
the natural resource areas--air quality issues, water issues, 
flora, fauna, and species. One of the projects that's 
identified in the Centennial Challenge is what we call a 
``BioBlitz.'' There will be seven national parks that will be 
participating. Over the next few years, they will do a 
BioBlitz--for 24 hours, bring in students and children and 
families into parks to do inventories of flora, fauna, and 
species. When it comes to global climate change, the Secretary 
has made that a very high priority, and has pulled subject-
matter experts together to really look at the sciences involved 
and address are three areas. There is land and water, there's 
science--and what is the third one? Policy and law. How could I 
forget that one? Policy and law, sir.
    Senator Akaka. Thank you. Thank you very much for your 
responses, Director.
    Ms. Bomar. Thank you.
    Senator Akaka. Are there any questions--further questions?
    I want to thank you so much for your responses, Director. 
You can tell that we are trying to understand----
    Ms. Bomar. I know, sir.
    Senator Akaka [continuing]. This, and will continue to work 
on it. I understand, Director Bomar, that you've agreed to sit 
with the next panel so that we can have a discussion with you 
and with the panel members on this proposal.
    Ms. Bomar. Yes.
    Senator Akaka [continuing]. I want to thank you so much for 
accommodating us.
    Ms. Bomar. No, au contraire. Thank you very much, Senator 
Akaka. I appreciate your time. Thank you.
    Senator Akaka. Thank you.
    So, I'd like to call up the next panel, at this time: Vin 
Cipolla, the president and chief executive officer of the 
National Park Foundation; Tom Kiernan, president of the 
National Parks Conservation Association; and Curt Buchholtz, 
the president of the National Park Friends Alliance, from Estes 
Park, Colorado.
    I'd like to welcome all of you to the subcommittee. We will 
include your full written statements in the hearing record, so 
we'd ask that you please limit your remarks to no more than 5 
minutes. Following your statements, we will have a round of 
questions for you, and for the Director.
    Mr. Cipolla, will you please begin with your statement?

    STATEMENT OF VIN CIPOLLA, PRESIDENT AND CHIEF EXECUTIVE 
               OFFICER, NATIONAL PARK FOUNDATION

    Mr. Cipolla. I thank you, Mr. Chairman and members of the 
committee for the opportunity to appear before you today. We 
commend the sponsors in this committee for their commitment to 
preparing our national parks for the challenges and 
opportunities of the next century.
    My name is Vin Cipolla, and I am the president and CEO of 
the National Park Foundation.
    The National Park Foundation is the national charitable arm 
of the National Park Service, chartered by Congress in 1967, to 
encourage private philanthropic support for America's national 
parks. Involvement by a diverse charitable community deepens 
connections to an understanding of both the history of the 
parks and how much they mean for our future.
    Since February, when the President focused the attention of 
the Nation on the National Park Service Centennial in 2016, 
there has been a lot of thoughtful dialog on how to ensure the 
future of our national parks. As the national charitable 
partner for the parks, we think it is key to continue the rich 
tradition in which the parks were founded and have been 
sustained, public and private interests working in tandem.
    The proposed bill recognizes the importance of this 
complementary approach. The National Park Centennial Challenge 
Fund Act, 1253, seeks to raise up to $100 million each year 
over a 10-year period from private donations, and to match 
those donations with Federal funding up to $100 million 
annually. This proposal continues the long history of private 
philanthropy that has created our unequaled system of national 
parks.
    More than 100 years ago, people from across this country 
gathered to protect the places they loved and the places they 
knew would matter long into the future. It is their spirit and 
ideals on which the national park system was founded. In fact, 
30 parks were directly created through donations.
    The future of philanthropic support is in both diversifying 
the opportunity to experience national parks and in 
diversifying the opportunity to support our parks. The National 
Park Foundation and friends groups, cooperating associations, 
and others continue this legacy of public/private partnership. 
Together, we are reinvigorating a movement for park 
philanthropy to benefit all parks.
    In the United States, charitable giving in 2005 exceeded 
$260 billion, of which approximately 90 billion went to causes 
related to the National Park Service mission: education, 
health, arts, culture, and humanities, and the environment. The 
national parks received only a small portion of these gifts. We 
can do better. We see great opportunities to make the national 
parks an important and prominent place for individual 
charitable giving. In the last fiscal year, we've been able to 
increase our number of individual donors by 40 percent.
    Also throughout its history, the National Park Foundation 
has worked with many significant corporate partners. Their 
support has enabled the National Park Service to enhance and 
expand important programs in such areas as education, 
preservation, community engagement, health, wellness, and 
volunteerism.
    Unilever, the longest-standing corporate partner of the 
National Park Foundation, has been working with us for nearly 
15 years, and, through one of the many programs they fund, has 
provided nearly 200 of our parks with 11,000 miles of recycled 
lumber. This product has been used for the decking around Old 
Faithful, the drydock for the USS Constitution, and miles of 
trails and boardwalks.
    For the last 8 years, Ford Motor Company has helped place 
Ph.D. students in parks across the system to help fund--park 
managers understand and find solutions to challenging 
transportation issues.
    American Airlines has helped us fund critical programs in 
global conservation initiatives dealing with migratory birds.
    Having worked with the parks for such a long time and in 
such significant ways, I can assure you that both the 
Foundation and its partners understand and share the concern 
that corporate support for parks not become confused with, and 
not lead to, commercialization. We will work carefully with 
Director's Order 21 to ensure that corporate involvement 
adheres to this guideline.
    Today's rich media environment creates multiple 
opportunities for donors and parks to work together in new and 
creative ways that do not lead to the commercialization of 
parks, such as the way we can use the Web to express the 
partnership and encourage engagement.
    Charitable involvement of the American people has helped 
preserve and protect our parks, as well as connect children to 
our parks, something then Federal Government can't do alone. 
The National Park Foundation continues to expand and support 
our own programs surrounding this initiative. We have seen 
support for the Junior Rangers and WebRangers Programs increase 
over the last 2 years, and we continue to expand and increase 
our electronic field trips, where we connected 37 million 
children in a simultaneous visit to our parks during the last 
National Park Week.
    The state of our parks at the centennial celebration in 
2016 will say a lot about our priorities as a Nation. I applaud 
efforts to increase base funding for the National Park Service 
so it can carry out its mission more fully. Opportunities for 
philanthropy must be central to any centennial legislation, and 
we confident this can be accomplished in a manner that allows 
our partners at the local level to be successful, and for 
programs at the national level to extend the benefits of 
philanthropy to all parks.
    Thank you, Mr. Chairman, for your ongoing support of 
national parks and for allowing me the opportunity to speak 
about the important role philanthropy plays in supporting the 
noble mission of the National Park Service.
    [The prepared statement of Mr. Cipolla follows:]

  Prepared Statement of Vin Cipolla, President and CEO, National Park 
                         Foundation, on S. 1253
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. We commend the sponsors and 
this committee for their commitment to preparing our national parks for 
the challenges and opportunities of the next century. My name is Vin 
Cipolla and I am the President and CEO of the National Park Foundation. 
The National Park Foundation is the national charitable arm of the 
National Park Service, chartered by Congress in 1967 to encourage 
private philanthropic support for America's national parks. Involvement 
by a diverse charitable community deepens connections to an 
understanding of both the history of the parks and how much they mean 
for our future.
    Since February, when the President focused the attention of the 
nation on the National Park Service Centennial in 2016, there has been 
a lot of thoughtful dialogue on how to ensure the future of our 
national parks. As the national charitable partner for the parks, we 
think it is key to continue the rich tradition in which the parks were 
founded and have been sustained--public and private interests working 
in tandem.
    The proposed bill recognizes the importance of this complementary 
approach. The National Park Centennial Challenge Fund Act (S. 1253) 
seeks to raise up to $100 million each year over a ten year period from 
private donations and to match those donations with federal funding up 
to $100 million annually. This proposal continues the long history of 
private philanthropy that has created our unequalled system of national 
parks.
    More than one hundred years ago, people from across this country 
gathered to protect the places they loved and the places they knew 
would matter long into the future. It is their spirit and ideals on 
which the National Park System was founded. Together, they had the 
vision to transform the natural treasures of our country into the first 
national parks so future generations could enjoy these magnificent 
places and learn about our nation's proud history. Thirty parks were 
directly created through donations.
    Private philanthropy has traditionally been held in the hands of a 
few individuals whose commitment is strong, consistent, and valuable. 
We view the future success of private support not only in the capable 
hands of Congress and the National Park Service, but also in the hands 
of the 80 million plus national park visitors and enthusiasts. The 
future of philanthropic support is in both diversifying the opportunity 
to experience national parks, and in diversifying the opportunity to 
support our parks.
    The National Park Foundation and friends groups, cooperating 
associations and others, continue this legacy of public private 
partnership. Together, we are reinvigorating a movement for park 
philanthropy to benefit all parks.
    This new century presents wonderful opportunities for our national 
parks, but also serious challenges. The parks exist in increasingly 
complex environments with varied and often competing demands placed 
upon them: the U.S. population is growing older and more diverse, 
children are spending less time outdoors, and technology is bringing 
rapid changes. The National Park Service and we as a nation are 
challenged to respond.
    We believe the American people, like the generations before, are 
ready to embrace this challenge and provide the innovation, creativity, 
and charitable support necessary to protect these places for the next 
100 years and beyond. In the United States, charitable giving in 2005 
exceeded $260 billion. Of which, approximately $90 billion went to 
causes related to the National Park Service mission--education; health; 
arts; culture and humanities; and the environment. The National Parks 
received only a small portion of these gifts. We can do better. Our 
preliminary conversations with major donors and philanthropic 
organizations surrounding the Centennial have been very promising. We 
see great opportunities to make the national parks an important and 
prominent place for individual charitable giving. In the last fiscal 
year, we've been able to increase our number of individual donors by 
40%. We believe these gifts pay dividends in deepening not just the 
financial, but also the emotional commitment that Americans have to 
their parks.
    Throughout its history, The National Park Foundation has worked 
with many significant corporate partners. Their support has enabled the 
National Park Service to enhance and expand important programs in such 
areas as education, preservation, community engagement, health and 
wellness, and volunteerism. Unilever, the longest-standing corporate 
partner of the National Park Foundation, has been working with us for 
nearly 15 years and through one of the many programs they fund has 
provided nearly 200 of our parks with 1,100 miles of recycled lumber. 
For the last eight years, Ford Motor Company has helped place PhD 
students in parks across the system to help park managers understand 
and find solutions to challenging transportation issues. American 
Airlines has helped us fund critical programs and global conservation 
initiatives dealing with migratory birds. Coca Cola North America 
recently pledged several millions of dollars to help parks across the 
system restore hiking trails for visitors.
    Having worked with the parks for such a long time and in such 
significant ways, I can assure you that both the Foundation and its 
partners understand and share the concern that corporate support for 
parks not become confused with and not lead to commercialization. We 
will work carefully within Director's Order #21 to ensure that 
corporate involvement adheres to this guideline. Over the last number 
of years, we have looked at this issue far too conventionally. Today's 
media environment creates multiple opportunities for donors and parks 
to work together in new and creative ways that do not lead to the 
commercialism of parks.
    This renewed interest in encouraging park philanthropy and 
partnerships creates many opportunities. First is the opportunity to 
connect and strengthen the fabric of support for parks on a national 
and local level. Our parks offer the best investments in the areas of 
youth-enrichment, education, health, and volunteerism, yet 
philanthropic potential on a grand scale and in line with contemporary 
thresholds has not been realized. Federal funding offers incentives for 
charitable partners to work collaboratively and creatively to develop 
fundraising campaigns that affect the entire park system. The National 
Park Foundation is prepared to take the necessary national leadership 
role to make this a reality and is currently working with an outside 
firm to examine the feasibility for creating a national philanthropic 
campaign to support national parks for the next century.
    Second is the opportunity to expand the dialogue around park 
partnerships. A richer conversation about parks will lead to 
incorporating best practices and innovation, especially at the state 
and local levels, which allow us to bring new ideas and models to 
national parks.
    Third is the opportunity to support the National Park Service as it 
works to enhance important youth and diversity programs system-wide. 
The approaching Centennial encourages us to build relationships that 
crosscut the full spectrum of American society. By working together to 
address under-reached audiences in ways that create meaningful park 
experiences, we ensure that all Americans feel connected to our shared 
heritage and accept their responsibility as future stewards of the 
national parks.
    While the charitable involvement of the American people has helped 
preserve and protect our parks, a lot of charitable activity today 
helps connect children to our parks--something the federal government 
can't do alone. The National Park Foundation continues to expand and 
support our own programs surrounding this initiative. We have seen 
support for the Junior Ranger and WebRangers programs at about $2.5 
million over the last two years and continue to expand and increase our 
Electronic Field Trips, connecting 37 million children in a 
simultaneous visit to our parks during the last national park week. We 
will continue to work to improve the relationship of children to their 
national parks, and plan to work with private charitable organizations 
promoting these programs. Additionally, the African American Experience 
Fund is working to connect people with national parks that present 
African American history and culture.
    We at the National Park Foundation look forward to this century of 
giving. We will be convening the first National Leadership Summit on 
Philanthropy and Parks at the University of Texas in Austin on October 
14-16 to bring together leaders from across our nation to shape 
strategies, which will ensure that our national parks remain the 
world's premier centers of learning, science, recreation, preservation, 
and partnership.
    The state of our parks at the Centennial Celebration in 2016 will 
say a lot about our priorities as a nation. I applaud efforts to 
increase base funding for the National Park Service so it can carry out 
its mission more fully. Opportunities for philanthropy must be central 
to any Centennial legislation and we are confident this can be 
accomplished in a manner that allows our partners at the local level to 
be successful and for programs at the national level to extend the 
benefits of philanthropy to all parks. Philanthropy is critical to not 
only leveraging the federal investment, but to creating new 
opportunities for more of the public to relate to their parks and to 
generate the creativity and innovation the National Park Service will 
need in the coming century.
    Thank you, Mr. Chairman, for your ongoing support of national parks 
and for allowing me the opportunity to speak about the important role 
philanthropy plays in supporting the noble mission of the National Park 
Service and in connecting all Americans to these very special places.

    Senator Akaka. Thank you very much, Mr. Cipolla.
    Now we will hear from Mr. Kiernan.

      STATEMENT OF TOM KIERNAN, PRESIDENT, NATIONAL PARKS 
                    CONSERVATION ASSOCIATION

    Mr. Kiernan. Mr. Chairman, Senator Burr, Senator Barrasso, 
I'm Tom Kiernan, president of the National Parks Conservation 
Association. I'm very pleased to be here this afternoon 
representing our over 330,000 members nationwide who care very 
deeply, as you all do, about our beloved national parks.
    Let me say, at the outset, it's a pleasure to have the 
Senator from North Carolina in your new ranking role, sir. It's 
wonderful to have your experience and the perspective from your 
region. We look forward to working closely with you and with 
the new Senator, Senator Barrasso, from Wyoming. We look very 
much forward to working with you.
    Let me also thank the Chairman and Senator Burr for holding 
this hearing in this very busy time before your August recess. 
It definitely goes to show that you share our collective goal 
of making national parks a national priority as we approach 
their centennial in 2016.
    NPCA strongly supports the concept of creating a special 
dedicated fund, over and above amounts provided through the 
appropriations process, to carry out selected priority projects 
and programs to enhance the park system, with philanthropic 
partners, during the years leading up to the centennial.
    To be successful, this initiative needs to, in our view, 
first, be viewed as part of a larger comprehensive solution to 
restore the parks by their 2016 centennial; second, it needs to 
effectively encourage appropriate increases in philanthropy; 
and, third, it needs to be integrated into, and support, a 
vision for the national park system as a whole.
    Elaborating on these three points, chronic funding 
shortfalls continue to be the most pervasive threat to our 
national parks. Our analysis over the last decade or so has 
shown that the parks suffer from a annual funding shortfall of 
approximately $800 million each year that is causing, as a 
result, many park managers to have to reduce their work forces, 
limit visitor center hours, perhaps even close some visitor 
centers, reduce the number of programs, and even reduce some of 
the ranger-led tours. Given this significant $800-million 
annual funding shortfall for the parks, I want to emphasize 
that the 100 million, or 200 million with the philanthropic 
portion, of this centennial fund idea must be thought of as 
only a part--a very important part, but only a part--of a 
concerted, comprehensive, multiyear effort to restore and 
adequately fund the Nation's parks.
    Mr. Chairman, I know that you're interested in seeing these 
funding problems remedied, and want to know what the long-term 
vision of the national park system should be with all of these 
additional funds. To help in that consideration, along with, I 
know, the Secretary's document, other documents, I'd like to 
submit for the record this document that NPCA put together, 
``Five Ways Americans Can Help Fix Our National Parks,'' that 
also includes some visionary thoughts on what the park system 
should look like when fully funded.
    Senator Akaka. It will be included in the record.
    Mr. Kiernan. Thank you, sir.
    Toward this end, we are also very pleased with the FY- 08 
Interior appropriations process that has cleared the House and 
has cleared the Senate committee, that would lead to roughly 
$200 million of additional annual operating support, reducing 
that funding shortfall from roughly 800 million to roughly 600 
million. I know that, Mr. Chairman, in this committee you all 
have worked to encourage increased funding for the parks, and I 
thank you for that.
    Let me also just mention that these proposed funding 
increases have been catalyzed by the thinking and leadership of 
Secretary of the Interior Dirk Kempthorne, who shares this 
vision. It's also been a personal pleasure to work with such an 
experienced and competent director of the National Park Service 
as Mary Bomar. So, I want to publicly thank the administration 
for their leadership on this initiative.
    I would like to now specifically, for a moment, talk about 
philanthropy. From its inception, the national park system has 
benefited greatly from the generosity of the American people, 
who have contributed millions of dollars to help ensure its 
excellence. We see increasing appropriate philanthropy as an 
integral and positive part of the initiative. But to 
effectively encourage appropriate increases in philanthropy, 
I'd like to make three specific recommendations about the bill 
that you're considering, Senate 1253.
    First, the administration's bill proposes to create a 
required match program whereby Federal funds would be matched, 
dollar for dollar, with non-Federal sources, the cash they 
contribute. We believe counting only cash contributions paid 
into the Treasury, as stipulated in this bill, is too limiting. 
By far, the largest share of the private contributions to the 
park system are in the form of in-kind materials and services. 
We believe these in-kind contributions and materials and 
services, and the related project management capabilities of 
the larger friends groups, should be included in the match 
process, as well.
    Second, some accommodation should be made for those parks 
that have very small or nonexistent friends groups. They should 
be a part of this program. This morning, I had the good fortune 
to testify on the House side in regards to the House bill 3094 
that you, I believe, briefly quoted. I do want to mention that 
that bill does not include a formal match requirement, but 
makes the philanthropic component more flexible. Therefore, it 
obviates the problems I just mentioned, and we would encourage 
the Senate to seriously consider that bill.
    Again, Mr. Chairman, thank you very much for holding this 
hearing, and we look forward to working with you and the 
committee.
    [The prepared statement of Mr. Kiernan follows:]

  Prepared Statement of Thomas C. Kiernan, President, National Parks 
                  Conservation Association, on S. 1253
    Mr. Chairman, and members of the subcommittee, I am Tom Kiernan, 
president of the National Parks Conservation Association (NPCA). Since 
1919, NPCA has been the leading independent voice of the American 
people for protecting and enhancing our National Park System for 
present and future generations. I am pleased to be here today on behalf 
of our more than 330,000 members nationwide who visit and care deeply 
about America's national parks.
    I particularly appreciate that the subcommittee has chosen to hold 
this important hearing on the proposed national parks centennial 
legislation in this time frame with the press of so much other 
important business before the Congress. Taking this step in the 
legislative process now clearly demonstrates that you share our goal of 
making national parks a national priority as the centennial of the 
founding of the National Park Service and the unique and magnificent 
park system the Park Service was created to manage and conserve 
approaches in 2016. Time is certainly of the essence in launching an 
ambitious, viable program to help repair and enhance the park system in 
order for it to begin its second century in the best condition 
possible, prepared for the challenges of the future. It is a task that 
requires the Congress, the Administration, philanthropic groups, 
conservationists, communities, and individual park advocates working 
together for a common purpose--to harness American pride, patriotism 
and vision to protect this precious national legacy. Holding this 
hearing before the impending recess sends an important message to that 
effect.
    NPCA strongly supports the effort to create a special, dedicated 
fund over and above amounts provided in the regular appropriations 
process to address priority programmatic and project initiatives to 
enhance the park system during the years leading up to the centennial. 
We see this concept not only as an important source of money to pay for 
important and worthy programs and projects for the parks, but as a way 
to engage the American people in keeping their own heritage alive.
    Let me emphasize at the outset, though, that this proposal alone 
will not solve the problems and address all the long and short term 
needs of the parks which have resulted from decades of funding 
shortfalls during many administrations and Congresses. It must be 
thought of as one part of a concerted, comprehensive, multi-faceted, 
multi-year effort to restore and adequately fund the nation's parks. 
Substantial increases in park funding, particularly for operations in 
addition to this bill, sustained over many years will be needed to make 
the parks whole.
    Chronic funding shortfalls continue to be the most pervasive threat 
to the national parks. Our analysis shows that the shortage of funding 
for park operations has grown to more than $800 million every year. The 
backlog of maintenance and preservation needs exceeds $7.8 billion, and 
the Park Service has a backlog of $1.9 billion in acquiring inholdings 
within park boundaries. Many park managers have been forced to reduce 
their work forces, lower the number of public education programs they 
are able to offer, shorten visitor center hours or shutter visitor 
centers altogether, and deny requests from school groups for ranger-led 
tours. In parks across the country, interpretive displays and signage 
are outdated, brochures are in short supply or non-existent and 
interpretive rangers are missing. In many parks, nationally significant 
lands are subject to development threats. Under these constraints, park 
managers struggle to engage and inspire visitors, and protect natural 
and cultural resources.
    Mr. Chairman, I know of your strong interest in seeing these 
problems remedied and in knowing what the long-term vision for the 
National Park System should be. In order to help address these issues, 
I have brought a copy of NPCA's report,* ``5 Ways America Can Fix Our 
National Parks'', which lays out our vision of what needs to be done 
for the park system to have a bright and successful future. With your 
permission, I would like to submit this document as a part of the 
record.
---------------------------------------------------------------------------
    * Report has been retained in subcommittee files.
---------------------------------------------------------------------------
    A commitment for sustained funding increases is absolutely 
necessary to make progress toward eliminating the annual $800 million 
operating budget shortfall. We believe without a doubt that, armed with 
the facts, the American people will agree that the protection and 
enhancement of the superlative natural, cultural and historic symbols 
of our shared American experience should indeed be a national priority, 
particularly in these difficult and unsettling times when the meaning 
of our heritage is so profound. These places remind us of who we are 
and how we got here, as a people and as individuals with personal and 
family connections to special park places.
    We are very gratified, and frankly relieved that the administration 
requested and the full House of Representatives and the Senate 
Appropriations Committee have approved FY 2008 Interior appropriations 
bills containing a significant first installment in the increases for 
park operations that are so essential. It would mean, roughly, that the 
$800 million operating shortfall would drop nearly to $600 million for 
the 2008 fiscal year. It is a good start. This increase needs to be 
sustained as the appropriations process moves forward, and we 
respectfully solicit your help in achieving that goal. I know that you, 
Mr. Chairman, and many members of this subcommittee, have consistently 
supported increased funding for park operations in the appropriations 
process, and I want to thank you for that.
    Nearly one year ago at Yellowstone National Park, Interior 
Secretary Kempthorne announced an initiative to re-focus attention on 
the national parks and their needs in anticipation of the 2016 
centennial. One of the key elements of that initiative is the so-called 
``centennial challenge,'' and how that concept is to be manifest in 
legislation is, of course, the subject of today's hearing. But before I 
discuss the legislation, let me say a word about Secretary Kempthorne.
    Since his arrival, we have experienced a sea change in 
receptiveness at the Interior Department to our entreaties about the 
needs of the parks and the federal responsibility to address them. 
Clearly, he shares our vision about the value of the National Park 
System to the American experience, both now and in the future, and I 
attribute the lion's share of this administration's newfound interest 
in the national parks to his presence and his commitment to help the 
parks on his watch. I thank him for his leadership in support of the 
national parks.
    Having an experienced director who has worked her way up through 
the ranks of the Park Service has also been good for the parks. Let me 
say for the record that it is a pleasure to work with Director Mary 
Bomar.
    While the central element of the effort to address the needs of the 
National Park System during the years leading up to the 2016 centennial 
must be focused on encouraging the federal government to meet its 
fundamental stewardship responsibility in protecting and adequately 
funding the national parks, much of the attention surrounding the 
centennial initiative has been devoted to the idea of creating a 
program to carry out selected signature or centennial projects and 
programs. We heartily support this concept so long as the specific 
projects and programs are integrated into a vision for the National 
Park System as a whole and will take the parks to a higher standard of 
excellence in preparation for their next century. The program should 
consist of new money, and should not result in reduced funding for 
other important park needs.
    Forty years ago, when the Eisenhower administration launched 
``Mission 66'', its commitment of $1 billion in preparation for the 
50th anniversary of the National Park System, it did so in the context 
of the development of the interstate highway system, with a vision very 
much influenced by that endeavor. The $1 billion initiative that 
President Eisenhower launched and Presidents Kennedy and Johnson 
continued is worth some $7 billion in today's dollars. Although that 
investment was devoted to a smaller national park system serving fewer 
visitors, it was tremendously important. In hindsight, however, it also 
resulted in what is now acknowledged to have been too heavy an 
investment in infrastructure projects, some of which needed to be 
reworked in later years. Accordingly, the centennial challenge must 
incorporate a strong set of criteria for project selection that will 
build on the most beneficial aspects of the Mission 66 experience, meet 
genuine park system needs, and avoid a repeat of past mistakes. It 
should articulate a vision and define priorities based upon the 
mandates of the National Park Service Organic Act and its mission. It 
must contribute to a compelling case that the Park Service will be 
better equipped to restore natural and cultural treasures, to protect 
park resources, to serve park visitors, to enhance park science, to 
engage the full diversity of our nation in the parks, and better 
connect them to schools and universities. It is essential that the Park 
Service focus as well on how it needs to evolve in order to fulfill its 
mission in the next century and to integrate the parks into the lives 
of more Americans and keep them relevant to the communities in which we 
live. If that occurs, Congress can be fully justified in making a ten-
year commitment to enhanced park funding.
    From its inception, the National Park System has benefited greatly 
from the generosity of the American people, who have contributed many 
millions of dollars in support of their parks in order to assure a 
measure of excellence in the condition of park resources and the 
quality of park programs for visitors. According to the Park Service, 
in 2005 the combined value of contributed services, aid and funding to 
national parks through cooperating associations, volunteers and friends 
groups, as well as the National Parks Foundation was approximately $241 
million. One of the truly exciting things about the centennial 
challenge concept is its potential to increase the level of 
philanthropic support for the park system. We see that as an integral 
part of the initiative, not just incidental to it.
    For its part, the Administration proposes to leverage additional 
philanthropic activity by creating a required match program whereby 
federal funds would be made available equal to amounts contributed by 
non-federal sources, up to $100 million per year. That is to say, if 
only $20 million dollars is raised privately under the program in a 
year, the federal government would contribute only $20 million. The 
``challenge'', therefore, would be to raise at least $100 million in 
philanthropy every year to ensure that the full $100 million in federal 
dollars could be released for centennial projects and programs.
    As is so often the case, the devil is in the details.
    The administration's bill, which you and Chairman Bingaman 
introduced in the Senate by request as S. 1253, requires that non-
federal contributions be made in cash and paid directly into the 
Treasury in order to qualify for the federal match.
    What we have learned from the various parks friends groups and 
other charitable organizations with whom we have developed close 
relationships over many years is that counting only cash contributions 
which are paid into the treasury is too limiting. In fact, by far the 
largest share of contributions to the park system is in the form of in 
kind materials and services. For example, in 2005, friends groups 
donated $61 million--$8.5 million in cash and $52.5 in non-cash 
contributions, according to Park Service estimates. It is important to 
note that non-cash contributions often take the form of turnkey 
facilities such as museums and visitor centers, materials such as the 
steel used for the restoration at Yosemite Falls, and other projects 
providing monetary value to directly benefit a specific park. Because 
such friends groups can often achieve market efficiencies through 
project management the Park Service cannot, such in kind contributions 
often result in substantial cost savings. This should be maintained.
    Under the match proposal, parks with particularly active or 
successful friends groups likely would be disproportionately advantaged 
since projects or programs they support would have a greater chance of 
being funded. Today, there are 391 units in the National Park System. 
There are some 175 friends groups. Some serve more than one park, but 
many if not most units have no such groups. Some accommodation needs to 
be made in the match concept to assure that parks without active, 
successful friends groups are not disadvantaged or forgotten.
    Finally, requiring the matching funds to be channeled through the 
treasury could actually be detrimental to the goal of increasing 
charitable contributions. Not only does it foreclose giving credit for 
in-kind or other non-cash contributions, but high-end donors in 
particular understand that financial gifts made directly to the 
government do not earn interest but that gifts though intermediary non-
profit groups do. Many of those donors also fear that their 
contributions will not be uses as they intended if they write a check 
to the federal treasury.
    The Grijalva/Rahall centennial bill (H.R.3094) introduced in the 
House of Representatives two weeks ago would also create a centennial 
fund to be used for selected projects and programs, but makes the 
philanthropic component optional rather than mandatory. Although the 
House bill clearly is not yet before this subcommittee, I believe you 
will find a brief explanation of our views on it informative. Since 
H.R. 3094 sets up a straightforward $100 million per year dedicated 
fund for the next ten years, it obviates the problems I just outlined 
as to what should be considered as qualified matching funds and how 
those contributions should be passed through, which are created in the 
administration's bill. For example, by using existing partnership 
authority, H.R. 3094 avoids the need to create new bureaucratic 
mechanisms that would be needed to make a philanthropic match 
requirement work. It ensures, for instance, that parks without active 
philanthropic partners will receive needed assistance in preparation 
for the centennial, while enabling friends groups and their national 
park partners to be as creative as possible in developing additional 
project or program proposals using the potential federal monetary 
commitment to leverage additional philanthropic activity. Without the 
requirement of a match, the bill avoids the need to develop a more 
encompassing and realistic match definition or to debate the inclusion 
of appropriate in kind contributions. By using existing partnership 
authority, it eliminates the need to address whether philanthropists 
would have to write checks directly to the treasury.
    That is not to say the potential to increase philanthropy is 
sacrificed. It will be absolutely critical for the Park service and its 
partners to work together to maximize the potential for using this 
program to attract additional philanthropic support.
    H.R. 3094 allows for sufficient flexibility to enable the Park 
Service to submit proposals to Congress that include a match component 
without requiring that funds be withheld from parks based on the 
existence or lack of a non-federal match. Experience shows that park 
philanthropies generally follow a philosophy of adding value. If the 
private sector sees itself as supplanting rather than supplementing the 
federal responsibility to fund the national parks, philanthropy 
retreats since no added benefit is evident. Potential donors are in 
general unwilling to pay for things they perceive their tax dollars 
should already be covering. By the same token, if potential donors 
recognize an increase in federal government priority for the national 
parks and an improved federal commitment to adequately funding park 
operations, their motivation to add value, including specific park 
improvements and programs will be invigorated. When coupled with 
sustained increases in funding for park operations, creation of the 
national park centennial fund clearly demonstrates the kind of 
increased federal attention that can lead to expanded charitable giving 
for the park system.
    Again, Mr. Chairman, let me commend you and all the members of the 
Subcommittee, for your interest in taking substantive action to ensure 
that our national parks are ready to meet the challenges of their 
second century. The lead up to the centennial presents an extraordinary 
opportunity to evaluate and prepare to meet these challenges and to 
reach the park system's full potential as one of our country's premier 
resources. Our sleeves are rolled up and we are ready and willing to 
work with you to perfect this important legislation and see it enacted 
into law as soon as possible. The national parks should be a national 
priority. By 2016, the entire National Park System should be a model 
for the world of American excellence and innovation, grounded in 
protecting the natural and cultural heritage we hold so dear.
    I am happy to respond to any questions you might have.

    Senator Akaka. Thank you very much, Mr. Kiernan.
    Now we'll hear from Mr. Buchholtz.

 STATEMENT OF CURT BUCHHOLTZ, PRESIDENT, NATIONAL PARK FRIENDS 
                    ALLIANCE, ESTES PARK, CO

    Mr. Buchholtz. Mr. Chairman and honorable committee 
members, thank you for inviting me to testify today about 
Senate 1253.
    My name is Curt Buchholtz. I am the executive director of 
the Rocky Mountain Nature Association, a nonprofit organization 
that's both a cooperating association and a friends group, 
helping Rocky Mountain National Park. It was established in 
1931, so we've been a friend of Rocky Mountain National Park 
for over 75 years.
    I am also the president of the National Park Friends 
Alliance, which is a confederation of some 48 nonprofit 
organizations engaged in fundraising for the national park 
system. These organizations, along with the National Park 
Foundation, work to engage the American public in philanthropy.
    The host of park--nonprofit national park organizations 
helping the national parks are collectively proud of their 
philanthropic track record and an expanding level of 
accomplishments. I'm not going to go into all of the details of 
those. I'll include them in my testimony.
    Philanthropy benefiting national parks has increased 
substantially over the last decade. In 2005, to offer a recent 
example, the National Park Service records show that friends 
groups generated donations totaling $68 million--this is in 
2005--with the National Park Foundation adding another 22 
million. In total, contributed services, financial aid, and 
assistance to national parks through volunteers, cooperating 
associations, and friends groups, totaled 234 million in that 
fiscal year. So, I think that's a rather remarkable record. 
Having seen park philanthropy increase over the last two 
decades, we consider the passage of 1253 as an important step 
in the right direction.
    Let me summarize the position of the National Park Friends 
Alliance.
    First, we are very enthusiastic about the National Park 
Centennial Initiative, as articulated by Interior Secretary 
Kempthorne and Director Bomar. Specifically in regard to the 
objectives that she discussed earlier today, they fall right in 
concert with our mission.
    Second, we endorse the proposal that Federal funds could be 
made available to match philanthropic contributions. It's our 
belief that that will increase philanthropic giving all across 
the country.
    Third, we believe that the Centennial Challenge 
acknowledges the significance of philanthropy. For the first 
time--and I've been working in this field almost 25 years--
Congress has come to realize that there is a wealth of public 
spirited interest. I believe this is encouragement and 
appreciation for the philanthropy that's current in existence.
    Fourth, we support this legislation because it presents a 
major opportunity for philanthropy to be nurtured at the local 
level--whether in the iconic parks, like Statue of Liberty, or 
in Golden Gate, or, as you know, at the USS Arizona, or at the 
smaller, newer parks, where perhaps currently there isn't a 
friends group in operation--and widens the opportunity for 
helping in many different areas, such as wildlife preservation 
or land acquisition and many other areas that philanthropy 
hasn't touched yet, at this point.
    I do have a few concerns, however, that I think we also 
need to address.
    First of all, if there is a mandate, as it states in the 
legislation, that nonprofit organization must transfer donated 
funds to the Federal Treasury, it is probable that the 
philanthropic component of the Centennial Challenge will fail 
simply because of donor reluctance to give directly to the 
Federal Government.
    Second, this legislation does not qualify the term 
``qualified partners.'' We know of no qualifying process or 
certification process for nonprofit partners in that sense of 
the word, beyond having a general or project agreement with a 
national park. A recent National Park Service report counts 174 
friends groups and 64-67 cooperating associations. That 
represents a fairly sizable set of partners, and presumably 
their agreements would qualify them, then, for this campaign.
    Third, in order for this challenge to succeed, we assume 
the National Park Service will strengthen its resolve to 
enhance the productivity of partnerships. Successful 
philanthropy means productivity.
    Fourth, as envisioned, the Centennial Challenge will be a 
decade-long endeavor, and we worry about whether funds will be 
appropriated sufficiently to attract either the immediate or 
the long-term commitment of donors. We've heard that there are 
those who doubt the ability of the nonprofit sector to raise 
the funds equal to the proposed $100 million per year, but with 
the boost of this legislation, we believe the national parks 
are guaranteed to become ever greater objects of philanthropic 
giving.
    A final concern is that the selection of signature projects 
should be developed in a context of collaboration with 
nonprofit partners, including as many of the 391 national park 
system sites as possible. Here, you find that I agree 
wholeheartedly with Mary Bomar's testimony.
    Philanthropy is not the wave of the future. It is already 
at work. These nonprofit partners that are allied with the 
government, should be encouraged and applauded. Together, we 
can ensure that the completion of significant national park 
improvements, both for the American people and for the next 
generation.
    Thank you for allowing me to have the National Park Friends 
Alliance present its point of view.
    [The prepared statement of Mr. Buchholtz follows:]

Prepared Statement of Curt Buchholtz, President, National Park Friends 
                        Alliance Estes Park, CO
    Mr. Chairman and honorable committee members, thank you for the 
invitation to testify today about S. 1253, a bill to establish a fund 
for the National Park Centennial Challenge, and for other purposes.
    I'm Curt Buchholtz, Executive Director of the Rocky Mountain Nature 
Association, a nonprofit membership organization working to assist 
Rocky Mountain National Park, enhancing the experiences of park 
visitors, and engaging citizens in stewardship. The Rocky Mountain 
Nature Association was established in 1931 and is a long-term partner 
with the National Park Service, helping with dozens of park improvement 
projects and hundreds of educational programs.
    Permit me to add that I am also the President of the National Park 
Friends Alliance, a confederation of some forty nonprofit organizations 
engaged in fundraising to benefit the National Park System. These 
organizations, along with the National Park Foundation, work to engage 
the American public in philanthropy and volunteerism and help protect, 
enhance, and interpret park resources. Many local organizations, like 
the Yosemite Association, the Mount Rushmore Society, and our own 
Nature Association have been partners with our individual parks each in 
excess of seventy-five years.
    The host of nonprofit partnership organizations helping national 
parks are collectively proud of their philanthropic track record and an 
expanding level of accomplishments--which now includes hundreds of 
completed projects in dozens of parks, ranging from the well-known $550 
million campaign to preserve and protect the Statue of Liberty and 
Ellis Island to a host of more modest projects, ranging from a $2.4 
million visitor center for Rocky Mountain National Park, to land 
acquisition, historical preservation, programs for kids, and even an 
educational endowment fund for the Blue Ridge Parkway. We are carrying 
forward a rich heritage of philanthropic enhancement of our National 
Park System, linking us philosophically to Stephen Mather, the National 
Park Service's first director, who was also a major park 
philanthropist. We cherish deep and positive relationships with the 
Park Service and a generous American public. At the same time, we 
applaud Congressional support and concern for our parks.
    Philanthropy benefiting parks has increased substantially over the 
past decade. In 2005, to offer a recent example, National Park Service 
records show that friends groups generated donations totaling $68 
million, with the National Park Foundation adding another $22 million. 
In total, contributed services, financial aid and assistance to 
national parks through volunteers, cooperating associations, and 
friends groups totaled $234 million in that fiscal year.
    Another recent example: a review of philanthropic activity in 
December 2006 found National Park Service-approved fundraising projects 
having a collective fundraising goal for nonprofit partners of 
$295,830,000, with $70,100,000 provided for those specified projects in 
matching federal funds.
    Having seen park philanthropy increase over the last two decades, 
we consider the passage S. 1253 as an important step in the right 
direction, giving recognition to the importance of philanthropy for our 
parks. Such legislation can create a positive climate for citizen 
stewardship and boost the culture of partnerships in public land 
conservation.
    The Friends Alliance must reaffirm a core principle, however, 
stating that charitable funds given to friends groups or directly to a 
national park must not be used to pay for basic government operations 
or to offset losses in appropriated funds, unless the donor 
affirmatively and knowingly restricts the funds to park operations. As 
the Alliance has consistently stated, the purpose of philanthropy is to 
add value to national parks--creating a margin of excellence beyond 
what the Park Service can accomplish alone.
    Permit me to summarize the position of the National Park Friends 
Alliance in regard to S. 1532:

          1) We are enthusiastic about the National Park Centennial 
        Initiative as articulated by Interior Secretary Dirk Kempthorne 
        and National Park Service Director Mary Bomar. The five 
        announced goals of stewardship, environmental leadership, 
        recreational experience, education, and professional excellence 
        certainly match our missions as park partners.
          2) We heartily endorse the proposal that federal funds could 
        be made available to match philanthropic contributions. It is 
        our belief that a federal match will draw attention to park 
        philanthropy and should increase the magnitude of giving in the 
        decade ahead.
          3) We believe that the Centennial Challenge acknowledges the 
        significance of philanthropy. It extends both encouragement and 
        appreciation to public spirited donors. It recognizes that 
        philanthropy has produced positive results in the past and can 
        play a significant and increased role within the context of 
        citizen support for national park stewardship long-term.
          4) We support this legislation because it presents a major 
        opportunity for philanthropy to be nurtured at the local 
        level--whether in the iconic parks or the smaller, newly-
        established sites, opening the opportunity for projects as 
        diverse as land acquisition or education, trail building or 
        visitor services, wildlife research or programs for young 
        people. Innovation is the key to the future. Today it is found 
        most often at the local park level where the National Park 
        Service intersects successfully with nonprofit partners. Of 
        course we also anticipate that major initiatives at the 
        national level will also have a significant impact, especially 
        for smaller sites or for parks with friends groups just getting 
        started.

    Any concerns we have in advancing this legislation focus on the way 
this Centennial Challenge may be interpreted as it evolves into a 
National Park Service program. The success of the Centennial Challenge 
depends upon the clarification of critical details. For example:

          1) If there is a mandate that nonprofit organizations must 
        transfer donated funds to the federal treasury, it is probable 
        the philanthropic component of the Centennial Challenge will 
        fail, simply because of donor reluctance to ``give'' directly 
        to the federal government. Based upon our experience very few 
        donors will place their contributions in federal government 
        accounts--and this requirement in the current bill would 
        greatly inhibit philanthropy. An alternative approach is 
        needed, perhaps through the National Park Foundation, which was 
        established by Congress to receive philanthropic gifts on 
        behalf of national parks.
          2) The legislation does not define ``qualified partners.'' 
        Perhaps incorrectly, our assumption is that that term includes 
        friends organizations like our own, cooperating associations, 
        and other nonprofit organizations having project or general 
        agreements with the National Park Service. We know of no 
        ``qualifying'' process now in place to establish a partnership 
        beyond that of general or project agreements. A recent National 
        Park Service report counts 174 friends groups and 67 
        cooperating associations, which represents a sizeable set of 
        partners presumably willing to be ``qualified'' for this 
        campaign.
          3) In order for this Challenge to succeed, we assume the 
        National Park Service will strengthen its resolve to enhance 
        the productivity of partnerships. Currently there are a number 
        of policy issues clouding the horizon, causing projects to be 
        unnecessarily burdened by delays. Successful philanthropy means 
        productivity.
          4) As envisioned, the Centennial Challenge will be a decade-
        long endeavor. We worry that funds will not be appropriated 
        sufficiently to attract either the immediate or the long-term 
        commitment of donors.
          5) We've heard that there are those who doubt the ability of 
        the nonprofit sector to raise funds equal to the proposed 
        Centennial Challenge of $100,000,000 per year. But with a boost 
        from this legislation, we believe national parks are guaranteed 
        to become ever greater objects of philanthropic giving.

    In answer to that concern, allow us to point to the long tradition 
of philanthropy within national park history. Gifts of land created 
major national parks, from Muir Woods to the Virgin Islands, from 
Acadia to Grand Teton. Just a quick survey of our members, from the 
Yosemite Fund and Golden Gate National Park Conservancy, from the 
Statue of Liberty to the Mount Rushmore Society, revealed recent gifts 
of $1 million from the Goldman Fund, $108,000 from the J.M. Long 
Foundation, $288,000 from Toyota, $1 million from the Donovan 
Foundation, $250,000 from the RR Foundation, $300,000 from the State of 
South Dakota Fund, $500,000 from the Goldsmith Foundation, and $15 
million from the Haas Jr. Fund. In my own case, a planned gift of $3 
million is being given to the Rocky Mountain Nature Association to 
benefit Rocky Mountain National Park, and will, most likely, be placed 
toward youth programs and endowments.
    Each year the magnitude of campaigns around the National Park 
System continues to grow. Offering just two examples from 2007, 
Gettysburg is completing a $95 million campaign and the U.S.S. Arizona 
Memorial has a $33.7 million campaign underway. National Park Service 
funds committed at Gettysburg total $11.2 million and at the U.S.S. 
Arizona they total $7.7 million. These two cases alone demonstrate the 
skillful leveraging of federal funds.

          6) A final concern is that the selection of ``signature 
        projects'' should be developed in a context of collaboration 
        with nonprofit partners, including as many of the 391 National 
        Park System sites as possible. As the Centennial Challenge 
        begins, nonprofit partners are committed to its success, both 
        in meeting the expectations of donors and in providing 
        accountability to the National Park Service and to Congress. In 
        the spirit of partnership, in some cases nonprofit 
        organizations will assume project fulfillment; in other cases, 
        the National Park Service may take the lead role. Philanthropy 
        is not the wave of the future. It is already at work. These 
        nonprofit partnerships allied with the government should be 
        encouraged and applauded. Together we can ensure the completion 
        of significant national park improvements both for the American 
        people and the next generation.

    The National Park Friends Alliance believes that S. 1253, a bill to 
establish a fund for the National Park Centennial Challenge, presents a 
challenge to nonprofit partners, no doubt. But it is a welcome 
opportunity. I can assure you that everyone I've talked to who is 
engaged in philanthropy is willing to participate in this campaign. We 
hope the challenge funds will be provided. We hope partnerships are 
given the tools to succeed. Friends groups, cooperating associations, 
and other nonprofits allied with the National Park System are energized 
by this vision and stand ready to help.
    Thank you for allowing the National Park Friends Alliance to 
present its point of view.

    Senator Akaka. Thank you very much, Mr. Buchholtz.
    I'd like to ask a question to Director Bomar, and ask you 
to comment on Mr. Buchholtz's recommendation that in-kind 
contributions be counted as part of the challenge, since that's 
the way most donations are made now. Why does the 
administration's proposal limit Federal matches to cash 
donations only? Would you agree to include in-kind 
contributions as eligible for a Federal match?
    Ms. Bomar. I think we're absolutely flexible, and would 
like to continue that dialog. Again, yes, our bill does state 
cash--I think we have some concerns about how we calculate the 
in-kind, presently. But we are certainly flexible and want to 
work with this committee, sir, to figure out the best way to do 
that.
    Senator Akaka. Then let me ask the other two witnesses, Mr. 
Cipolla and Mr. Kiernan, for any comment you may have on--or 
whether you agree with Mr. Buchholtz on in-kind contributions, 
and whether they should be counted.
    Mr. Cipolla. Thank you. The in-kind has been, as already 
stated, a very important part of the philanthropic mix. The 
thinking, I believe, behind the bill only talking about cash 
contributions, was that there is a lot of potential in cash 
charitable giving to the national parks, that the parks 
themselves, as a charitable cause, barely makes it to the 
contemporary threshold, in terms of where charitable giving is 
today, and that, if there were more ways to stimulate cash 
charitable contributions to individual parks, to the National 
Park Service, more would, in fact, be made, that the potential 
is there, that the appetite is there among the charitable 
community.
    Having said that, and to underscore Mary's point, we also 
recognize that in-kind products and services have been very 
important to the national parks. Those of us in the business of 
park philanthropy have accepted in-kind products and services. 
We look forward to a continuing dialog as to how that might be 
able to be worked into this new approach.
    Senator Akaka. Mr. Kiernan.
    Mr. Kiernan. Briefly, I'd add our support to including in-
kind contributions in the match process. We want to optimize 
the creative roles for what should the Federal Government be 
doing, what should the private sector be doing, and having in-
kind as an option, which obviously has worked in the past, we 
think can work if appropriately managed in the future. It's a 
way of furthering the public engagement in the protection and 
enhancement of our parks.
    Senator Akaka. Thank you.
    Mr. Cipolla, the administration's legislative proposal does 
not specifically mention the National Park Foundation. What do 
you envision to be the role of the Foundation if this bill is 
enacted?
    Mr. Cipolla. Thank you, Mr. Chairman.
    As you know, Congress created the National Park Foundation 
as a flexible philanthropic charitable vehicle for the National 
Park Service, and we have fulfilled, for the National Park 
Service, many roles over time.
    There are things, though, that a national organization can 
do that our absolutely outstanding friends groups can't do as 
easily. For example, national awareness, or national 
grantmaking programs, or working at the national level with the 
Director's office and with the Director's partnership office on 
helping strategize programs with potential donors, and also the 
requirements in order fill those donations. So, the National 
Park Foundation, I think, can have a very broad role in its 
partnership with the National Park Service in fulfilling the 
needs of the Centennial Challenge.
    Senator Akaka. Mr. Cipolla, earlier in the hearing I asked 
a similar question to Director Bomar, but I would also 
appreciate your views regarding how we assure that parks 
without active successful friends groups are not disadvantaged 
or forgotten in the program as established by this bill.
    Mr. Cipolla. Again, Mr. Chairman, thank you.
    This is a distinctive area for the National Park 
Foundation. We conduct grantmaking today among about 290 
national parks. We would love that to be the entire system. As 
a national organization, it's incumbent upon us to be able to 
work with all parks and to be sure that resources are 
distributed to small and large parks, alike. In many ways, I 
think, as the charitable partner for the National Park Service, 
we are also the charitable entity for those parks that don't 
have friends groups.
    Senator Akaka. Mr. Kiernan, your organization recently 
issued a report which stated the--and quote, ``critical issue 
for the National Park Service is to develop a compelling case 
that will induce Congress to make a 10-year funding 
commitment,'' unquote. Do you think the agency has done so?
    Mr. Kiernan. The Secretary released to the President, May 
31, his vision--I think Director Bomar has a copy of it--for 
the Centennial Initiative. We think that's a strong document 
and a great place for Congress and the American public to 
continue building this vision that we have for the parks for, 
if you will, their second 100 years of service to this country 
and to this world. So, we think the Secretary's vision is a 
strong vision, and we look forward to working with the 
administration and Congress in making that broad, comprehensive 
vision a reality by the 100th anniversary. If we are ever going 
to restore the parks, it's going to be over this coming 10-year 
window.
    Senator Akaka. Thank you.
    Let me call on Senator Burr for his questions, and I have a 
few, after that.
    Senator Burr. Thank you, Mr. Chairman.
    Let me go to the in-kind question that's raised. Mr. 
Kiernan, personally I believe in-kind should be something we 
should consider. When you state that, do you believe that 
volunteerism is considered an in-kind?
    Mr. Kiernan. That has been a lively discussion. So far, our 
support has been for more materials and services. We've not yet 
stated that volunteers should--volunteer time should be part of 
the match process. So far, we're saying that materials and 
services--and, frankly, the project management capability of 
some of the large friends groups, that should be taken account 
and be part of this centennial matching process.
    Senator Burr. I look forward to exploring this a little 
more with everybody concerned. Let me just warn that, when you 
get into volunteer time being considered an in-kind, I think 
you get into a very dangerous area--I think you begin to lose 
people on the Hill, you begin to define things in a way that 
potentially it could have some effects outside of the world 
we're talking about here. So, I would caution you very much to 
try to clearly define, for the purposes of ``in-kind,'' what 
might be in that basket.
    Vince, let me ask you, because I got in with the Director 
on the Proud Partners Program, and used the Ford, sort of, 
Toyota scenario. Tell me how that would play out, as you see 
it.
    Mr. Cipolla. Yes. Thank you, Senator Burr. There are four 
organizations that are a part of the Proud Partner construct, 
which, of course, was a framework that was created many years 
ago. Your question is so spot-on, because the centennial 
strategy contemplates potentially much wider philanthropic 
support, and corporate philanthropic support, so there could be 
tension between those Proud Partner relationships, those four 
Proud Partner relationships and new companies that want to 
participate very broadly.
    The essence is that a Proud Partner has exclusivity around 
national marketing of the partnership with the National Park 
Service. That is the essence of the exclusivity, the 
exclusivity that would be in question.
    These terrific partners that have been working with the 
National Park Service for many years, these four Proud 
Partners, are part of the centennial discussion. They 
understand that there's a new framework that's being developed. 
None of them want to be responsible for stopping the 
philanthropic largesse of another organization. So, more work 
is going to be needed on developing that.
    Senator Burr. Does this demand--and I agree with all of you 
that I think we've only touched the philanthropic potential of 
parks--but, given the scope of this challenge, does it almost 
demand us to go back and look at the programs we have in 
effect, challenge ourselves as to whether we modify those, and, 
if we don't modify them, how we incorporate them into the 
challenge, in somewhat of a leveled capacity, so everybody's 
part of the challenge, there are a few that are considered at a 
different level than others, and sort it out before we launch 
two programs that could find an intersection that's 
uncomfortable?
    Mr. Cipolla. Yes, sir. The companies that we're talking 
about expect, very much, to be in that conversation, and are in 
that conversation. New structures will have to be formed. I 
mean, there hasn't been a lot of care given to the variety of 
frameworks for a wide potential of philanthropic partnership 
and involvement. So, that is the hard work that's underway, and 
we'll continue to go on with Director Bomar's organization and 
her partnership office, and with the donors themselves. It's 
very important, as you recognize, to have them in the tent with 
us as we're talking these things through.
    Senator Burr. If the Foundation was given the opportunity 
to manage $100-million annual matching fund program, what 
initial changes would you need to make to take on this 
challenge and ensure its success?
    Mr. Cipolla. We have been investing in the capacity of the 
National Park Foundation. The Foundation is not large, and, for 
many years, it didn't take some of the steps really necessary 
to encourage and engage the kind of philanthropy we're talking 
about today. But, in the last 2 years, we've been making those 
investments in our technology platform, in data base 
management, in other capacities that we need. So, the Park 
Foundation is in a very good spot to support the National Park 
Service, as we're chartered to do so, and managing--and having 
a broad role in managing the Centennial Challenge. At the same 
time, as has been recognized, we have an outstanding field of 
friends groups across the country, powerhouse friends 
organizations that are very strong charities in their own 
right. They can handle the opportunity associated with their 
parks, and they don't need to be eclipsed by a national 
organization either. So, there's an opportunity, I think; 
there's the potential for us all to work together.
    Senator Burr. Mr. Buchholtz, I sort of understand what you 
say about the reluctance to write the U.S. Treasury a check. 
I'm thinking that if there weren't some penalties every year, I 
wouldn't want to do it either. But when you're making 
donations, it's even a bigger challenge. What would you suggest 
as an alternative to writing checks to the U.S. Treasury?
    Mr. Buchholtz. I guess I would base my answer upon what 
I've already been doing for the last 25 years, and that's 
writing my checks to a nonprofit organization that's helping a 
national park. You know, philanthropic giving is a matter of 
personal choice. We have abiding affection for our national 
parks. I mean, that's what causes us to take our checkbook out 
and support the charity of our choice in the United States; 
and, in some cases, in the national park system, some parks, 
because of demonstrated needs, or because of personal interest, 
will draw our attention.
    I think, in the ideal, it would be wonderful if all 391 
parks were engaged in philanthropy, but I'm enough of a realist 
to understand that there are some parks that just won't draw 
that level of support, for whatever reason--maybe they're--the 
case isn't as compelling. But I think, when I write my personal 
checks, which I've written thousands of dollars of personal 
checks to national parks, I write them because I believe in 
them and because I'm convinced that my dollars will be properly 
spent at that area, using a nonprofit organization as the 
vehicle for that.
    Would I send it off to the Federal Treasury? Even if I knew 
it were going to be matched, I'd have to think about that. I 
think that's too much of a bridge.
    Senator Burr. I appreciate your raising the issue, because 
I think it is something that we all need to think about, and 
there are some merits to a nonprofit intercession there, 
because there is some interest that can be earned, where you 
can't get it in the Federal Government, I will assure you.
    Mr. Kiernan, is land acquisition an appropriate use of the 
Centennial Challenge Fund? If so, should S. 1253 be amended to 
specify that funds can only be used for acquisition involving 
willing sellers?
    Mr. Kiernan. We envision this centennial program 
implementing a set of themes or goals. One set has been what 
the Secretary's put on the table with those themes. We could 
see land acquisition as a tactic toward achieving one of the 
goals laid out there; so, we would see it as option within 
implementation. So, we would want to see funds available for 
that. We would be very comfortable with--from willing sellers--
having that be very clear in the bill.
    Senator Burr. OK, thank you.
    What do you envision as the role of the National Parks 
Conservation Association in the context of the Centennial 
Challenge?
    Mr. Kiernan. As you may know, NPCA was founded in 1919 as 
an independent advocate for the national parks. So, we are an 
advocate for creating a centennial effort, so we are here to 
work with you, with the American public, to generate the 
enthusiasm, but we're an advocacy organization, we are not a 
fundraising organization, like the Park Foundation or Curt's 
organization or the others. So, we're completely separate from 
that, and, in all candor, we very strongly applaud their 
efforts. In particular, the National Park Foundation over the 
last several years, under Vin's leadership, has done a very 
good job at building the capacity and the strength of the 
National Park Foundation to prepare for the coming work ahead. 
So, we applaud their work. We see ourselves as the independent, 
separate advocate. We do not do philanthropic work.
    Senator Burr. Great. Great. Once again, I'd like to thank 
all three of you and the Director for your willingness to share 
with us today, and I look forward as we find a way to perfect 
this, and move forward very quickly.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Burr.
    I have two questions. In your written testimony, Mr. 
Buchholtz, you state that there are a number of policy issues 
clouding the horizon regarding partnerships with the National 
Park Service. If S. 1253 is enacted into law, would these 
issues adversely affect implementation of the Centennial 
Challenge Fund?
    Mr. Buchholtz. I would say that there are some people 
within the Department of Interior and the National Park Service 
who are listening to the problems that we're facing in the 
field at this point relative to collaborative work. They are 
policy issues that deal with such things as--cooperative 
agreements, for example, would be one, or the issues of 
facilitating the construction projects or the various kinds of 
things that these nonprofit organizations are now doing in the 
national park system. Life isn't as simple as it was 10 years 
ago, when philanthropy wasn't quite so active. But, as times 
get more complex, obviously we're pushing the envelope in our 
ability to have nonprofits work together collaboratively with 
the National Park Service. I think that's the kind of policy 
issue that I'm talking about.
    They are getting sorted out, I'm convinced of that. There 
are some good heads working on this, both on the legal side of 
it and on the construction side, to make sure that things are 
much smoother.
    My guess is that this legislation passing will expedite, 
will help move those along even faster, and it will get those 
issues resolved.
    Senator Akaka. Director Bomar----
    Ms. Bomar. Yes, sir.
    Senator Akaka [continuing]. My question to you, after 
hearing Mr. Buchholtz--Do you share his concerns about the Park 
Service's relationships with its nonprofit partners?
    Ms. Bomar. Yes, I do, Senator Akaka. I've known Curt for 
many years. We met at Rocky Mountain many, many years ago. I 
was an acting superintendent there, and, as they say, we've 
come a long way. We still have some work to do. The Secretary 
and I are absolutely committed to improving the process, being 
more efficient and effective, and working with our partners. 
Yes, we do have some barriers that we have to work with, but we 
certainly look forward to this challenge, Senator Akaka. One of 
the things that we have said is that Americans have always 
loved their national parks. This is not just about the money; 
it is about re-engaging the American public. I think that we're 
certainly looking at a whole new era, with wonderful 
opportunities ahead of us, and we need to seize the day. It's 
the right time, right place, right people to make all these 
things happen and put this foundation in place. Shame on us in 
the Park Service if we can't get our act together in some areas 
to make these partnerships work much more efficiently. I give 
credit to the partnership office; they have come a long way 
with us. We are working very closely with our solicitor's 
office to make sure that we can work through some of these 
issues.
    Mr. Kiernan. Mr. Chairman, if I may just jump in with a 
brief comment--and I believe it's consistent, thematically, 
with their two comments--that Director's Order 21, as it was 
promulgated within the last year, we do see that as an 
important framework that articulates the appropriate role of 
philanthropy in working with the Park Service. No doubt, there 
are places where things still need to get sorted out, but we do 
see the current Director's Order 21 as an important framework 
to keep in place.
    Senator Akaka. Mr. Cipolla, would you care to make any 
comments about that?
    Mr. Cipolla. Thank you, Mr. Chairman.
    I think the point has been well covered. I would like to 
also say, under Director Bomar's leadership, that there has 
been a lot of focus on the area of partnership, and a lot of 
pragmatism in approaching that focus. We want to applaud the 
National Park Foundation, applaud our number-one partner, the 
National Park Service, on all the work they're doing in the 
partnership area.
    Ms. Bomar. Thank you, Vin.
    Senator Akaka. I thank all of you for your responses, and 
your testimony, as well. I know that Director Bomar, Mr. 
Cipolla, and Mr. Kiernan also testified at the House hearing on 
this same issue this morning. I looked up at the clock, and I 
thought, ``Well, you've had a long day.''
    [Laughter.]
    Senator Akaka. So, I really appreciate your time and your 
patience here, and your testimonies and your responses, because 
it's going to help us to try to push this National Park 
Centennial Challenge on its way.
    As Senator Burr noted earlier this afternoon, we don't 
often devote an entire hearing to a single legislative 
proposal----
    Ms. Bomar. Yes.
    Senator Akaka [continuing]. Which we are doing at this 
moment. But, since it's not every day that we discuss how to 
find an extra billion dollars for our national park, it seemed 
worth the extra time. So, here we are together.
    All of the testimony today will be very helpful as the 
committee considers this bill, and I look forward to working 
with Director Bomar, Senator Burr, and the other members of 
this committee as we try to figure a way to move this proposal 
forward.
    We may receive questions from other committee members who 
were unable to attend, and, if we do, we'll submit them to you 
in writing and ask that you answer them so they can be included 
in the hearing record.
    Senator Akaka. This has been a great hearing, and thank 
you, again, for all that you've done.
    This subcommittee hearing is adjourned.
    [Whereupon, at 4:04 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              


       Responses of Mary Bomar to Questions From Senator Salazar

                              PUBLIC INPUT

    Director Bomar, let me begin by thanking you and your staff 
for responding to my request for additional public hearings in 
Colorado on the National Park Service Centennial Challenge. You 
held hearings in March in Denver. Durango, Alamosa, and Grand 
Junction. These public meetings, I trust, will help guide how 
you approach the Centennial Challenge, I want to ensure that 
the public can continue to play a central role in shaping the 
development of the Centennial Challenge. Specifically, the 
public needs to be able to help decide what projects are 
labeled ``signature projects'' and their input needs to be 
systematic and periodic. The people who use the parks and live 
near the parks, after all, will have some of the best ideas for 
Tlow to prepare our Parks for the 2016 centennial.
    Question 1. How will the Park Service continue to solicit 
public input on the Centennial Challenge over the next several 
years? What role will the public have in suggesting and 
reviewing projects that may become ``signature projects''? Are 
you planning additional public meetings in Colorado to discuss 
the Centennial Challenge?
    Answer. The National Park Service conducted more than 40 
listening session across the country to create the centennial 
vision as expressed in The Future of America's National Parks, 
the report that Secretary Kempthorne and Director Bomar 
presented to the President and to the American people on May 
31, 2007. The public welcomed the listening sessions with such 
enthusiasm that the National Park Service has committed to 
making them annual events at every park. The public also 
submitted comments on line, and we will continue to use that 
avenue to collect ideas. We received 6,000 comments, including 
many suggestions or ideas for centennial projects. Park 
superintendents have access to the comments and ideas related 
to their parks to consider for future centennial project calls 
or for potential integration into regular park business.

                PARKS RANGER SCHOOLS PARTNERSHIP PROGRAM

    In my opening statement, I mentioned that I will be 
introducing a bill that will create a grant program for schools 
that partner with the National Park Service to bring kids into 
the outdoors and more rangers into the classroom. The grants 
would be for up to $25,000 over three years.
    Question 2. What educational programs are you proposing as 
part of the Centennial Challenge? Will you be seeking 
authorization for any of these programs through the No Child 
Left Behind reauthorization?
    Answer. Of the 201 projects and programs that have been 
determined to be eligible for Centennial Challenge funding in 
FY 2008, more than 70 are in the ``education'' category. These 
programs represent a range of initiatives for reaching out to 
youth, improving interpretive exhibits and materials, and 
taking other steps to use parks as opportunities for learning.
    We will not be seeking authorization for any educational 
programs through the No Child Left Behind reauthorization or 
through any other legislation; all the selected centennial 
projects and programs for FY 2008 will be for activities that 
are already authorized.

                               NPS BUDGET

    We cannot mistake the $100 million in matching funds that 
this bill is proposing to create as a substitute for annual 
appropriations to fund operations, maintenance, acquisitions of 
inholdings, and educational programs.
    Question 3. What commitment will you provide the Committee 
that the Administration will submit a budget request that will 
reduce the estimated $7.8 billion maintenance backlog, $1.9 
billion inholdings acquisition backlog, and reverse the trend 
of cuts to education programs and visitor services?
    Answer. Funding through the Centennial Challenge Fund is 
intended as a supplement to, not at substitute for, funding for 
operations, maintenance, land acquisition, and visitor services 
that is provided through the annual appropriations process. The 
Challenge Fund proposal was paired with the ``Centennial 
Commitment'' to help ensure that regular appropriations for the 
National Park Service would be increased substantially at the 
same time that additional funding was made available through 
the Challenge Fund partnership program. The Centennial 
Commitment is the Administration's pledge to propose an 
additional $100 million each year for operations and 
maintenance at national park units, which includes 
interpretation and education and other activities that directly 
benefit visitors.

         Responses of Mary Bomar to Questions From Senator Burr

    Question 4a. The National Park Foundation is chartered by 
Congress as the only national charitable partner of America's 
National Parks. Director Bomar, how would you describe the 
relationship between the National Park Foundation and the 
National Park Service?
    Answer. The relationship between the National Park 
Foundation and the National Park Service is strong and 
productive. The Foundation's mission is to strengthen the 
enduring connection of the American people and their national 
parks by raising private funds, making strategic grants, 
creating innovative partnerships and increasing public 
awareness. The National Park Service and the Foundation operate 
under a general agreement outlining strategics, policies and 
procedures governing grant-making, partnership communication 
and other partnership activities.
    In 2005, the Foundation received nearly $22 million of 
contributed property, goods, and services, which includes 
benefits directly to the parks (e.g. visitor center films, 
vehicles, materials for trails, photograph contest prize, etc.) 
and to the Foundation. The Foundation also holds many 
restricted accounts for parks. Additionally, the Foundation has 
established a number of initiatives to directly support 
specific National Park sites or types of sites such as the 
African-American Experience Fund and the Flight 93 National 
Memorial Fund. As our national fundraising partner, the 
Foundation is in a unique position to raise funds nationally 
for the benefit of the entire National Park System.
    Question 4b. What do you see as the role of the National 
Park Foundation in implementing the Centennial Challenge Fund?
    Answer. As the Congressionally chartered fundraising 
partner of the America's national parks, the Foundation has a 
40-year track record of raising public awareness, cultivating 
citizen stewardship, and increasing philanthropic support for 
the benefit of our national parks. The Foundation has stated 
that the Centennial Challenge Fund will offer incentives for 
charitable partners to work collaboratively and creatively to 
develop fundraising campaigns that affect the entire National 
Park System. We see the Foundation playing a key role in 
cultivating the collaboration and generating the creativity 
necessary to make the Centennial Challenge Fund a success.
    The Foundation is working to expand the dialogue around 
park partnerships, including its hosting of the first-ever 
Leadership Summit on Partnership and Philanthropy. The Summit, 
held in October at the University of Texas at Austin, explored 
how public and private interests can work together. Speakers 
and participants included senior business leaders, foundation 
directors, park professionals, government officials, educators, 
and others excited to help build the next century of citizen 
stewardship of our national parks.
    Question 5. Many National Park units have friends groups 
that raise money for special projects and organize volunteers 
to assist the parks. Friends groups are accustomed to working 
directly with park staff on projects funded by private 
donations. What do you see as the role of friends groups in 
selecting and implementing projects funded by the Centennial 
Challenge Fund?
    Answer. Friends groups will not be selecting the projects 
funded under the Centennial Challenge Fund--that was done by 
the National Park Service for the FY 2008 projects, and will 
continue to be done internally for future selections. However, 
the role of friends groups will be critical to the success of 
the Centennial Challenge program.
    The National Park Service recognizes philanthropic and 
volunteer support as both a noble tradition of the national 
parks and a vital clement of the Service's success. The 
National Park Service actively engages the help of over 170 
local friends groups, which contribute time, expertise and 
privately raised funds to support our national parks. These 
local friends groups range from volunteer and start-up 
organizations to large-scale, successful fundraising partners 
to long-time programming and education partners.
    Potential Challenge Fund projects were generated from the 
``ground up'' by park managers who worked closely with their 
friends groups to determine the best matches between park needs 
and opportunities for friends groups to generate philanthropic 
support. Friends groups and other partners have made 
commitments worth a total of $215.9 million toward the 201 
proposals (worth $369.9 million) that have been determined to 
be eligible for Centennial Challenge funding in FY 2008. We see 
this as a strong indicator of the commitment and the capacity 
our friends groups have in carrying out the Centennial 
Challenge.
    Question 6. Director's Order Number 21 covers donations and 
fund raising by the National Park Service, The Director's 
Order, which was updated on May 1, 2006, provides for 
philanthropic donations and donations tied to advertising 
called Corporate Campaigns. Do you anticipate any changes to 
Director's Order 21 if S. 1253 is enacted?
    Answer. No, we do not anticipate any changes in Director's 
Order No. 21.

       Responses of Mary Bomar to Questions From Senator Barrasso

    Question 7. According to your letter to the Committee on 
July 19, 2007, ``teams of National Park Service professionals 
will evaluate the projects and programs and summarize the 
implementation strategies.''
    Question 8. What will be the make-up of these teams?
    Answer. Three teams met in Washington to evaluate the FY 
2008 projects and programs. The ``project'' team was 
responsible for evaluating project (i.e--non-programmatic) 
centennial proposals based on established criteria. The members 
of this team had experience on the National Park Service's 
line-item construction team and used a rigorous process called 
``choosing by advantages.'' The team members represented all 
regions and the Washington office, and was composed of 
employees in varied disciplines from landscape architecture, 
facility maintenance and park management, to budget and 
information technology. The ``program'' team evaluated 
potential centennial programs for individual parks while 
keeping an eye toward their potential for national application 
and benefits. Team members represented a broad knowledge of 
National Park Service programs and contributed specific, 
applicable knowledge in one or more of the five centennial 
goals. These team members also represented every region and the 
Washington office, and brought varied expertise as park 
superintendents and program managers with experience in 
interpretation and education, wilderness management, 
partnerships, science, resource stewardship, and information 
technology.
    The ``strategies'' team, like the others, represented all 
regions and the Washington office, and the members brought to 
their task a broad understanding of the centennial goals, a 
sense of vision, and openness to new ideas. These team members 
have varied experience as park superintendents and program 
managers. They read, summarized, and excerpted the best and 
brightest ideas from the parks' and programs' centennial 
strategies.
    Question 9. How will the team members be chosen?
    Answer. National Park Service Deputy Director Dan Wenk 
asked regional directors and associate directors to recommend 
the best employees to serve on the teams based on the work of 
the teams and the expertise and experience those tasks 
required.
    Question 10. Do the teams have the final say on the list 
recommended projects, or will you and Secretary Kempthorne make 
final determinations?
    Answer. The teams applied criteria and their expertise in 
evaluating the centennial proposals. Based on their work, they 
recommended proposals that were ``certified eligible for 
Centennial Challenge funding.'' After reviewing the list, 
Secretary Kempthorne and Director Bomar made the final 
determinations. The teams did an exceptional job in putting 
forth proposals that meet the criteria, move us toward 
centennial goals, have partner support, and will prepare parks 
for another century of conservation, preservation, and 
enjoyment.
    Question 11. What role will Congress play in deciding how 
the $100 million dollars in discretionary funds is allocated 
each year and which signature projects and programs are awarded 
a federal match?
    Answer. Under S. 1253 as introduced, the Secretary would be 
required to submit to the House and Senate Appropriations 
Committees, the House Natural Resource Committee, and the 
Senate Energy and Natural Resource Committee the list of 
signature projects and programs eligible for funding from the 
Challenge Fund and any additions made to the list as they are 
added. In addition to fulfilling these requirements, we are 
committed to having an ongoing dialogue with Congress on the 
criteria used for the selection of programs and projects and on 
the selected programs and projects themselves.
    Question 12. Who specifically will administer the federal 
matching program and how much will it cost to administer?
    Answer. The National Park Service would administer the 
matching program in much the same way that other funding 
provided to the Service is administered--through our 
Comptroller, acting under the direction of the Director, and 
delegating responsibility for obligating the money as 
appropriate. We have not determined the cost of administering 
the program.
    Question 13. S. 1253 would require up to $1 billion in 
direct spending over 10 years. Do you have an offset in mind to 
help Congress in passing this bill?
    Answer. There are several mandatory proposals with savings 
in the President's budget for FY 2008 that are under the 
jurisdiction of the Committee on Natural Resources. They are 
listed below with the estimated net amount of savings they 
would generate over the next 5 and 10 fiscal years. We are not 
asking Congress to use any of these proposals specifically to 
offset the Centennial Challenge proposal; we list these only to 
illustrate some options for offsets.
------------------------------------------------------------------------
                                  Net Savings  2008-  Net Savings  2008-
            Proposal                     2012                2017
------------------------------------------------------------------------
MMS Net Receipt Sharing                $227 million        $447 million
Deduct states' share of
 administrative costs of onshore
 mineral leasing program from
 their receipts
------------------------------------------------------------------------
Coal Bonuses                           $426 million
Require full payment of bonuses
 on all new coal leases at the
 time of leas sale, consistent
 with oil and gas leases
------------------------------------------------------------------------
Federal Land Transaction               $186 million        $334 million
 Facilitation Act
Update BLM lands available for
 disposal and change the
 distribution of proceeds from
 those sales
------------------------------------------------------------------------
Arctic National Wildlife Refuge      $4,010 million      $4,025 million
Open Section 1002 of Coastal
 Plain to energy exploration and
 development
------------------------------------------------------------------------
BLM Range Improvements                 $ 47 million        $ 97 million
Deposit grazing fee receipts in
 Treasury instead of Range
 Improvement Fund
------------------------------------------------------------------------
Energy Policy Act of 2005              $184 million        $309 million
Repeal fee prohibitions. and
 mandatory permit funds
 (Sections 224, 234, 344, 345,
 365)
------------------------------------------------------------------------
Pick Sloan Missouri Basin              $115 million        $230 million
 Program
Recover capital costs from power
 users
------------------------------------------------------------------------

                                 ______
                                 
       Response of Vin Cipolla to Question From Senator Bingaman
    Question 1. S. 1253 reflects the Administration's proposal. If you 
were developing this proposal from scratch, what would you do 
differently?
    Answer. We believe the process the National Park Service and the 
Department of the Interior have followed to create this proposal has 
been open, inclusive, and transparent. Friends groups, user groups, 
corporate partners, philanthropic organizations, and the public have 
all participated in the process. The proposed bill recognizes the 
importance of private and public interests working in tandem and 
furthers the tradition of private citizens participating in the 
preservation of our national parks.
    We encourage you to revisit the requirement in the bill that 
private funds must come to the federal government to trigger the 
federal match. Many donors are reluctant to give to the federal 
government and such a provision will hinder philanthropic giving. To 
provide the necessary fiscal responsibility and realize the full 
potential of each donation, irrevocable letters of credit could be 
employed by the fundraising partner and their local financial 
institution. In addition, the National Park Foundation (NPF), as the 
congressionally chartered philanthropic arm of the National Park 
Service, could act as the repository for philanthropic donations and 
act as the fiduciary agent for the Centennial Fund.
        Responses of Vin Cipolla to Questions From Senator Burr
    Question 1. The National Park Foundation has been chartered for 
several decades to raise and distribute funds for National Parks. If 
given the chance to amend S. 1253, what would you change to allow the 
National Park Foundation to apply its mission toward implementing the 
Centennial Challenge Fund?
    Answer. As the national philanthropic partner of the National Park 
Service, the NPF raises private funds for national parks and serves as 
a fiduciary agent. NPF has been asked by the Secretary of the Interior 
to lead a national, coordinated fundraising campaign in support of the 
Centennial Challenge Initiative. Given its congressional charter, the 
NPF could also act as the fiduciary agent for the Challenge and accept 
and administer privately raised funds. Removing the requirement that 
private funds must be deposited in the federal treasury would encourage 
increased giving as many donors are reluctant to donate to the federal 
government. This approach would also allow for the private funds to 
accrue interest while waiting for release of the federal matching 
funds.
    Question 2. If the National Park Foundation was given the 
opportunity to manage a $100 million dollar annual matching fund 
program, what initial changes would you make to take on such a 
challenge and ensure success?
    Answer. The NPF is gearing up to lead the national capital campaign 
in support of the National Park Service centennial. We will conduct 
this campaign in concert with national, regional, and local partners 
including friends groups and cooperating associations. We have 
contracted with an outside firm to prepare a feasibility study that 
will recommend how best to structure, administer, and manage a national 
philanthropic campaign of this scale over a ten-year period. We will 
use recommendations from this study to build and manage the campaign, 
including the addition of staff or contractors to provide NPF with the 
necessary capacity to achieve the campaign goals.
    Question 3. What is the Proud Partners Program and does S. 1253 
create any potential conflicts with the program?
    Answer. The Proud Partner program is a national cause-marketing 
program that was established by the National Park Foundation in 2000. 
The program raises public awareness about our national parks and funds 
park programs that engage youth, support volunteers, address 
conservation and resource issues and restore park trails. Since its 
inception, the Proud Partner program has contributed more than $100 
million in cash and resources to the National Park Foundation to 
support public education initiatives and park programs system-wide. 
Several leading corporations have made significant contributions to the 
parks through the program including current partners American Airlines, 
The Coca Cola Company, Ford Motor Company and Unilever. Each of the 
Proud Partners has pledged its commitment and support to the Centennial 
Challenge Initiative. We are confident that the NPF, the Proud 
Partners, and the NPS Partnerships Office can work through any concerns 
regarding the program as it continues to evolve in response to changing 
needs and opportunities. The Proud Partners have been long supporters 
of the national parks and will be instrumental in raising public 
awareness and building our donor base to achieve the philanthropic 
goals of the Centennial Initiative.
    Question 4. How closely does the National Park Foundation work with 
friends groups and do you have an existing arrangement to accept funds 
from and distribute funds to the groups?
    Answer. The NPF works closely with friends groups to achieve the 
highest level of philanthropic support for the national parks and build 
lasting relationships between people and their parks. NPF participates 
in regular conference calls with the Friends Alliance and hosts the 
group's Washington, D.C. meetings. NPF's support of national programs 
and awareness campaigns complements and furthers the work of friends 
groups at the local level. NPF has also collaborated with friends 
groups on specific projects and in the future, may accomplish some of 
its work through these organizations.
    Question 5. According to S. 1253, an irrevocable letter of credit 
is not sufficient for obligating funds towards a project. We have heard 
from friends groups that if an irrevocable letter of credit is treated 
with greater confidence, donors would be able to hold funds in interest 
bearing accounts for a longer period. This would allow the donation to 
increase. What is your experience with irrevocable letters of credit 
and is there a risk in treating them with greater confidence than S. 
1253 would allow?
    Answer. Irrevocable letters of credit are well-accepted financial 
tools. They are often used in international transactions and while the 
NPF does not routinely use them, similar instruments that rely on the 
creditworthiness of a financial institution are commonplace. In the 
case of the proposed Centennial Challenge, the letter of credit would 
be backed by the financial institution and protect the federal 
government from the failure of the partner to fulfill their obligation. 
The commitment could not be changed or altered without the agreement of 
all parties. We do not see a risk in treating letters of credit with 
greater confidence.
      Responses of Vin Cipolla to Questions From Senator Barrasso
    Question 1. Have you seen an increase in donor interest since the 
announcement of the Centennial Challenge Initiative last August?
    Answer. Yes. In the last fiscal year, our number of individual 
donors has increased by 40%. Through conversations with donors and in 
particular, corporate and foundation partners, interest in the 
Centennial Initiative--particularly the Challenge proposal--is high. 
The opportunity to leverage their gift with federal funds is very 
appealing to donors. We are excited by the energy and innovation these 
partners are bringing to the Centennial discussion and by the increase 
in philanthropic giving that may result.
    Question 2. In my home state, the Grand Teton National Park 
Foundation did a fantastic job of raising $13.6 million in private 
funds for the construction of a new Craig Thomas Discovery and Visitor 
Center in Grand Teton National Park. The Park Service would not accept 
a letter of credit to begin the project. Not being able to use a letter 
of credit cost the Foundation approximately $500,000 in interest 
charges. These donated dollars could have been better used for a 
project in the park not on interest on a bank loan. How can we better 
use letters of credit to ensure that we maximize private gifts to the 
national parks?
    Answer. Irrevocable letters of credit, or similar financial tools, 
can provide the flexibility necessary to maximize the potential of a 
donation. Funds can be released exactly when they are needed to 
maximize the interest bearing potential of the private donation. This 
is particularly important in multi-year projects and construction 
projects when funds must be in place for a project to begin, but may 
not need to be released immediately.
    Question 3. This bill allows federal matches for letters of credit, 
but only one fiscal year at a time, and the funds cannot be obligated 
until they are deposited in the Challenge Fund. It can be months after 
funds are obligated and contracts are signed before the money is 
actually needed to pay the bills? Couldn't these funds be accruing 
interest in the interim? Would you change this provision in any way? 
Why or why not?
    Answer. Letters of credit could be important tools in administering 
the Centennial Challenge. They provide the federal government with the 
assurance that the necessary donated funds have been secured, while 
maximizing the power of the donation by allowing funds to remain in an 
interest bearing account until absolutely needed.
                                 ______
                                 
       Response of Tom Kiernan to Question From Senator Bingaman
    Question 1. S.1253 reflects the Administration's legislative 
proposal. If you were developing this proposal from scratch, what would 
you do differently?
    Answer. NPCA starts with the presumption that no initiative on 
behalf of our national parks will be sufficient unless it is 
accompanied by a significant, sustained effort to augment the base 
operating budgets of the national parks. This year's effort by the 
administration, and by Senate and House appropriators, with important 
encouragement from you and many members of your committee, makes a 
start and is critically needed by the parks. That said, the idea of a 
special program with dedicated funding to carry out selected projects 
and programs to make the park system even better is a good one, 
particularly if it also serves to raise the park system's profile and 
re-engage the American people by encouraging added philanthropic and 
other non-federal support. In the past, NPCA has supported the idea of 
doing that by creating the opportunity for the American people to 
support their parks with a tax check-off on their tax forms. As 
embodied in the National Park Centennial Act the stream of revenue 
created by the tax check-off would be supplemented by federal dollars 
to ensure that the job got done and that the federal government met its 
primary responsibility to the parks. We still believe that idea has 
merit, and it would have provided greater resources than contemplated 
under the Centennial Initiative and Challenge. Nonetheless, one 
important parallel between the Centennial Act and the Centennial 
Challenge is the involvement of the American people with their parks. 
As I mentioned in my testimony, we believe the federal match 
requirement in the administration's proposal is unnecessarily limiting 
in an effort that has a goal of further involving the American people 
in their national parks. Reinvigorating and enhancing the philanthropic 
spirit directed toward the national parks is a worthy goal, which can 
be achieved while also encouraging other forms of involvement from 
civic and educational institutions and communities around the nation 
that may not have the means to provide a dollar-for-dollar cash match. 
The Secretary's August 23rd announcement of the initial round of 
centennial proposals and the truly encouraging level of non-federal, 
philanthropic financial support already committed demonstrates the 
enormous interest among philanthropies and other non-federal entities 
in committing to the reinvigoration of the national park system. We 
would suggest that such interest will and should continue regardless of 
whether the federal government requires a dollar-for-dollar cash match 
or simply encourages matching and other partnership efforts. Clearly, 
there is enormous support for enacting the Centennial Challenge in some 
form, and we encourage the committee seize this opportunity and move 
legislation. NPCA is eager to assist in this endeavor.
        Responses of Tom Kiernan to Questions From Senator Burr
    Question 1. Mr. Kiernan, what is the relationship between the 
National Parks Conservation Association and the National Park 
Foundation?
    Answer. As a private, non-profit advocacy organization for the 
National Park System, NPCA has no direct or formal relationship with 
the Congressionally chartered National Park Foundation. We do, maintain 
a very strong, cordial working relationship with the Foundation, and we 
often consult, cooperate and work closely with NPF personnel on 
subjects and projects of mutual interest. The central distinction 
between our two missions is the Foundation's role as a philanthropy 
that raises money directly for the national parks, and NPCA's historic 
and continuing role as the major national advocacy organization working 
on behalf of the national parks. The Foundation does not lobby Congress 
on behalf of the national parks, and NPCA has no intent or desire to 
intrude on the Foundation's mission as an increasingly able and 
effective fundraiser on behalf of the parks, themselves.
    Question 2. What do you envision as the role of the National Parks 
Conservation Association in the Centennial Challenge?
    Answer. Again, as a private, non-profit advocacy organization for 
the National Park System, we do not envision a formal or explicit role 
in the Centennial Challenge. We are extremely proud of the role we 
played in encouraging the administration to launch the Centennial 
Initiative and in working with so many friends in Congress to 
demonstrate the need for such an effort. We will, of course, continue 
to be active in providing ideas, comments, encouragement and criticism 
to help shape policy decisions we feel are needed to ensure that the 
entire Centennial Initiative is carried out in the manner that provides 
the greatest possible benefit to the National Park System and its 
mandate as set out in the National Park Service Organic Act.
      Responses of Tom Kiernan to Questions From Senator Barrasso
    Question 1. Does the bill do enough to protect the parks from 
commercialization?
    Answer. The potential for commercialization of the national parks 
as a result of increased private financial participation is a concern. 
The Interior Department has demonstrated it is sensitive to that 
concern by specifying in Section 6, subsection (d) of the bill that it 
does not expand existing authority regarding the ability of National 
Park Service personnel to receive or solicit donations. It appears the 
intent is to make clear the Centennial Challenge is to be executed 
under the requirements of Director's Order 21, which was issued a 
little over two years ago. In addition to providing rules for 
soliciting and receiving private donations, it also restricts the 
things that can be done in parks to commemorate these contributions. 
NPCA was deeply involved in helping shape Director's Order 21, and we 
are generally comfortable that commercialization of the parks will not 
occur if its requirements are followed. We would be more comfortable 
with the administration's bill if it included an explicit instruction 
that all aspects of Director's Order 21 apply to the Centennial 
Challenge program, as the bill introduced in the House by Congressman 
Grijalva and Congressman Rahall does.
    Question 2. Under this federal matching program, do you believe 
smaller, less recognized park units will receive the same consideration 
and fundraising attention as large, celebrated parks?
    Answer. We have been worried that the lesser-known, so-called 
``have not'' parks may be disadvantaged under the administration bill's 
match formulation. Those parks with the most active and successful 
friends organizations tend to be the larger, better know, iconic parks, 
and it would seem the non-federal share of money for proposals in those 
parks would be more readily available. That is one reason we have 
argued that the range of selected projects and programs should include 
those that benefit the entire park system, not just individual parks. 
It seems the Park Service has been sensitive to this concern, inasmuch 
as the list of qualified proposals announced on August 23rd is 
relatively well balanced, including system-wide proposals and some from 
smaller park units, as well as a number from the iconic parks. 
Nonetheless, the absolute requirement for a dollar-for-dollar match, 
unless changed, poses the risk that the many units of the National Park 
System that do not have major philanthropic partners and are unlikely 
to see such entities develop in the near future, could largely be left 
out of the Challenge. We would encourage the committee to explore ways 
to strongly encourage matching and to celebrate the role and promise of 
philanthropy, while also encouraging and providing resources for worthy 
and needed endeavors and partnerships that encourage public involvement 
where the contemplated dollar match may not be possible.
                                 ______
                                 
     Responses of Curt Buchholtz to Question From Senator Bingaman
    Question 1. S. 1253 reflects the Administration's legislative 
proposal. If you were developing this proposal from scratch, what would 
you do differently?
    Answer. If we were developing this proposal from scratch, allow us 
to provide the following suggestions:

          a) We would voice enthusiasm for the philosophy of challenge 
        grants and believe it will greatly encourage the philanthropic 
        community to expand its effort.
          b) We would include legislative language that would allow 
        matching funds from the federal government to be distributed 
        directly to nonprofit organizations having signed agreements 
        with the National Park Service for the Centennial Challenge 
        campaign.
          c) We would employ standards and processes already in place 
        within the federal government in general and the National Park 
        System in particular to ensure both success and accountability.
          d) If federal funds could not be distributed directly to 
        nonprofit partners and regarding an accounting for funds 
        raised, we would rely upon the National Park Foundation as an 
        intermediary between Congressional matching funds and local 
        nonprofit (or other nonfederal) partners, not unlike the 
        matching grant system productively in place within the National 
        Fish and Wildlife Foundation.
          e) Only cash would be transferred to the National Park 
        Foundation for accounting and matching purposes, then returned 
        to the nonprofit (or other nonfederal partner) to complete 
        authorized projects. Certified letters of credit could also be 
        used to validate the existence of matching funds. Cash would be 
        transferred to the U.S. Treasury only in those cases where the 
        National Park Service is designated as the project facilitating 
        agent and the funds could be restricted for specific project 
        purposes.
          f) Rules or regulations related to challenge matched funds 
        (including such details as recognizing, in-kind services, 
        lands, or other non-cash matches) should parallel existing 
        successful programs, such as the National Park Service 
        challenge cost-share grant program and successful, existent MOA 
        programs established between individual parks and their 
        nonprofit partners. An audit committee within the National Park 
        Foundation comprised of independent and qualified volunteers, 
        working together with the National Park Service and consistent 
        with generally accepted auditing and accounting practices, 
        should establish the accounting requirements, qualifying 
        criteria, and reports sufficient to satisfy both the Internal 
        Revenue Service and committees of Congress.
       Responses of Curt Buchholtz to Questions From Senator Burr
    Question 1. How much did friends groups that belong to the Friends 
Alliance donate for National Park Service projects and programs in 2005 
and 2006? Would you expect donations to increase if a Federal matching 
fund program is enacted?
    Answer. The National Park Friends Alliance is just beginning to 
track or report donations from its individual members. But that 
information can be derived from Line 13 of IRS Form 990 of the 
individual nonprofit organizations. For historical purposes, the 
Alliance relies on data collected by the National Park Service or the 
Government Accounting Office. To quote the most recent data available 
from the National Park Service regarding friends groups: ``There are 
174 friends groups contributing time, expertise and privately-raised 
funds to support our national parks. They range from volunteer and 
start-up organizations to large-scale successful fundraising partners 
to long-time programming and education partners. Contributions from 
friends groups were determined by review of the publicly available 2005 
IRS Form 990 for friends groups with incomes $25,000 or greater 
(approximately 45% of NPS friends groups). The NPS uses the donation 
figures reported by the friends groups to the IRS. These figures are 
not equivalent to cash or non-cash donations directly to the National 
Park Service but rather show the expenditures of a friends group in 
support of their mission and by extension the work of the National Park 
Service. In 2005, approximately $8.6 million in cash and $59.8 million 
in non-cash support were contributed for a total contribution of $68.4 
million.''
    Question 2. How many volunteer hours did the members of the Friends 
Alliance provide to the National Park Service in 2005 and 2006?
    Answer. The National Park Friends Alliance does not collect 
information from its members regarding volunteer hours contributed to 
the National Park System.
     Responses of Curt Buchholtz to Questions From Senator Barrasso
    Question 1. What role will the National Park Friends Alliance play 
in shaping and implementing this federal matching program?
    Answer. Over the last fourteen years, the National Park Friends 
Alliance has addressed issues related to fundraising policy and 
increasing philanthropy within the National Park System. Although the 
Alliance remains informal in its structure, its active membership has 
steadily grown to forty-eight organizations. It does not represent the 
entire array of 174 friends organizations identified by the National 
Park Service. But it does represent many of the long-term and most 
advanced fundraising organizations within the National Park System. It 
enjoys well-established ties with the National Park Foundation, the 
Association of Partners for Public Lands and some 67 cooperating 
associations.
    Since the National Park Friends Alliance has an expressed objective 
of enabling and expanding philanthropy within the National Park System, 
it is logical that it will not only play a key role in implementing 
this new federal matching program, it may be relied upon to help ensure 
its success. The individual friends groups will be instrumental in 
developing the programs with their national park partners, and 
implementing the campaigns to solicit the non-federal funds.
    Question 2. If this bill is enacted, how would you prepare for the 
increased fundraising and administrative activity required to make the 
federal matching program a success?
    Answer. Unlike large bureaucracies, nonprofit organizations relish 
an ability to respond to opportunities presented in stride with their 
mission, exhibiting an almost entrepreneurial zeal. Advancing their 
public-spirited missions to help national parks, friends groups stand 
ready to rally donors to much-needed projects. But we hasten to add 
that raising the needed funds is only a fraction of the workload 
envisioned. Producing completed projects in national park requires more 
skills than fundraising. To be successful we must have expeditious 
decision making, both by nonprofits and by Park Service colleagues. 
Success will require partnership-friendly leadership skills. It 
requires collaborative planning. Success will depend upon a broad 
vision to ensure the long-term health of the parks. It will require 
flexibility in recognizing valuable matches to program implementation, 
such as donations of lands and establishment of endowments. It will 
require increased training, not only in philanthropy but also in 
project management, continuing unabated over the next decade. It 
requires hosts of donors satisfied with results. It will require 
visionary leadership, a strong commitment to accountability, and sheer 
persistence to be successful.
    Question 3. Do you believe you can secure significant, sustained 
contributions over ten years?
    Answer. If Congress and the National Park Service foster and 
encourage philanthropy, donor interest and contributions are guaranteed 
to increase. If Congress, working together with the National Park 
Service and its nonprofit partners, creates a challenge grant program 
working in tandem with the philanthropic world, America's national 
parks will be better places, improved beyond our imaginations by 2016. 
At the same time, we will have perfected the process of building 
productive partnerships, guaranteed to foster park stewardship far into 
the future.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

         Statement of Derrick A. Crandall, President, American 
                          Recreation Coalition
    Mr. Chairman and Distinguished Members, the American Recreation 
Coalition (ARC) appreciates the opportunity to applaud the interest of 
Members of this committee and others in assuring a bright future for 
the National Park Service and its role as manager of one of the 
nation's truly spectacular legacies--the nearly 400 units of the 
national park system.
    I am Derrick Crandall and I am delighted to offer testimony on 
behalf of the members of the American Recreation Coalition--more than 
100 national organizations, representing virtually every segment of the 
nation's $400+ billion outdoor recreation industry, and tens of 
millions of outdoor recreation enthusiasts. A listing of our members is 
attached to this testimony. Our organization has played an active role 
in federal recreation policy since its creation in 1979.
    Outdoor recreation is a vital and positive force in our nation 
today. Nine in 10 Americans participate in outdoor recreation today, 
and a major catalyst for this involvement is the marvelous shared 
legacy of our Great Outdoors--one in three acres of the surface of the 
nation managed by federal agencies and hosting well in excess of a 
billion recreation visits annually. ARC monitors participation in 
outdoor recreation closely through national surveys. A summary sheet on 
participation is attached.*
---------------------------------------------------------------------------
    * Summary sheet has been retained in subcommittee files.
---------------------------------------------------------------------------
    The benefits accruing from recreation participation are 
significant, and the appreciation for these benefits is growing. The 
economic significance of outdoor recreation is obvious in communities 
across the nation, and especially those communities proximate to 
federally managed lands and waters. From boat dealers to campground 
operators, from RV manufacturers to ski rental shops, from retailers 
selling outdoors goods to guides and outfitters, tens of thousands of 
businesses and millions of Americans are supported by the expenditures 
on recreation by American families. And increasingly, America's 
recreational opportunities are a key factor in luring international 
visitors to enjoy the world's best systems of parks and forests, 
refuges and other public sites.
    The role of recreation in addressing serious concerns about the 
increasing inactivity-related obesity of the American people, 
especially our young people, is also significant. According to the 
Department of Health and Human Services, seven in 10 deaths are 
attributable to preventable, chronic diseases--like diabetes, heart 
disease and some forms of cancer--associated with obesity and 
inactivity. In addition, a national study has shown that nearly 20,000 
children and adolescents in the U.S. are diagnosed with diabetes every 
year. A critical cause is the tripling in the rate of obesity among 
young people since the 1970's, due, we believe, in no small part to the 
six and a half hours they now spend indoors every day watching TV and 
using computers. We believe that an important antidote to this alarming 
picture is outdoor recreation. We also believe that recreation 
opportunities on our nation's public lands, including our national 
parks, are an essential asset in the effort to encourage people to 
change their behavior and start enjoying the outdoors.
    Mr. Chairman, the recreation community is ready to join with many 
other organizations as partners with the National Park Service to 
prepare the national parks for the agency's second century, beginning 
in 2016. We applauded the announcement one year ago by the Secretary of 
the Interior, Dirk Kempthorne, that the President was using the 90th 
anniversary of the National Park Service as an opportunity to look 
ahead 10 years, to develop a consensus on how to restore and enhance 
park units and to add to the system's quality. We continued to applaud 
when the President's FY 2008 budget proposal incorporated a genuine and 
major commitment to this goal--a boost in spending of some $4 billion 
over 10 years, and a bold and exciting initiative to invite public 
participation in enhancing our parks. We continued to applaud when 
Members of Congress embraced this initiative, adopting FY 2008 spending 
levels that reflect major increases in spending on operations and 
maintenance and long-neglected elements like interpretation. And we now 
applaud those who have introduced legislation to create a Centennial 
Fund that would fund the signature projects needed to ensure a bright 
future for the National Park Service as it enters its second century.
    We associate ourselves with the recommendations made by Gary 
Kiedaisch, President and CEO of The Coleman Company, regarding 
opportunities to improve the legislation, including adoption of a Fund 
modeled after the fund created by the Southern Nevada Public Lands 
Management Act--a fund that has demonstrated an ability to use and 
leverage nearly $3 billion in federal funds since 1998 for important 
conservation, recreation and environmental goals.
    We are delighted in the broad definition of signature projects 
contained in S. 1253 and the flexibility it provides the Secretary to 
prepare the parks for another century of conservation, preservation, 
and enjoyment. We especially urge the Congress to recognize the vital 
importance of needed recreation infrastructure in our parks. Americans 
need better trails, better campsites and better boat launches in our 
parks. In recent years, the national parks have benefitted from 
significant increases in park road funding through allotments from the 
Highway Trust Fund. We have also seen significant reductions in the 
backlog of maintenance needs in our parks. Yet very little investment 
has been made in expanding and improving recreation opportunities. We 
need readily accessible, front-country trails equipped with 
interpretation--whether traditional means such as display panels or new 
technology ranging from podcasts to cell phone-accessible recorded 
information. We can and should find ways to expand trail riding 
opportunities for cyclists--on trails designed to minimize 
environmental impacts and conflicts with other trail users. These 
projects should be high priority for the Centennial effort, and we 
applaud the emphasis put on recreation experiences in parks in the 
Secretary's May 31 report to the President. We also strongly support 
the Secretary's suggestion that a campaign to get Americans outdoors 
and active should be mounted.
    Finally, we urge adoption of a strategy for funding the Centennial 
Challenge Fund. We ask this committee to allow Interior to generate a 
supplementary revenue stream from reduced energy expenditures at 
Interior facilities. Energy costs are a significant and growing expense 
for Interior bureaus like the National Park Service. Capital 
investments can reduce those costs. Substitution of co-generation and 
geo-thermal processes is a proven solution for increasing efficiency, 
for example, but requires investments often not reflected in near-year 
budgets. Interior could be given a target of reducing energy costs 
department-wide by $50 million by 2009 and for every year thereafter, 
and be empowered to allow suitable companies to invest in advanced 
heating and cooling, lighting and vehicle programs that will help 
achieve those targets. Under a shared savings program, the reduced 
energy expenditures could be divided evenly to repay the investors in 
efficiency and to generate $25 million annually for the Challenge Fund.
    A second suggestion is that Interior be charged with identifying 
locations on lands it administers where tree planting could occur to 
offset greenhouse gas emissions, and then to allow companies and 
organizations to plant approved trees paid for by individuals and 
companies, either under voluntary ``carbon footprint reduction'' 
initiatives or to generate emissions reductions credits. Twenty-five 
percent of the funds for the plantings would be paid to Interior: half 
of that amount would be used to administer the program and deter fraud 
and the other half would be deposited into the Challenge Fund.
    We believe these would be valuable, win/win components in providing 
an offset to the expenditures proposed for the Challenge Fund.
    Thank you for your interest and your actions to assist America's 
national parks and America's Great Outdoors. We urge rapid action on 
legislation to stimulate the partnerships needed to allow our national 
parks to enter and continue a second century of world-wide leadership 
and of providing benefits to the American public.

                                                               Outdoor Recreation Activities Participated In Past Year: Trend Data
                                                                % who have participated in during past year; ranked by 2003 data                                               1994             1995             1996             1997             1998             1999             2000             2001             2003                                                      %                %                %                %                %                %                %                %                %
Walking for fitness/recreation                       NA               45               39               42               47               42               57               49               46
Driving for pleasure                                 40               36               33               34               39               35               41               36               43
Swimming                                             35               31               28               31               33               40               39               40               41
Picnicking                                           33               29               24               26               30               32               36               36               38
Fishing                                              26               24               22               20               22               28               26               28               28
Bicycling                                            21               20               16               19               19               22               23               23               22
Running/jogging                                      19               16               13               12               16               16               18               21               19
Campground camping                                   16               16               12               12               15               21               17               18               18
Hiking                                               18               18               12               15               17               15               19               22               18
Outdoor photography                                  15               15               10               13               15               12               17               17               17
Bird watching                                        14               11                8               11               10               11               16               18               16
Wildlife viewing                                     18               15               10               14               16               15               16               20               16
Visiting cultural sites                              NA               NA               12               14               18               16               16               17               15
Golf                                                 11               12               11               11               12               12               13               12               13
Motor boating                                        10                9                5                8                9               11                9               12               10
Back packing                                         13               12                8                7               10               10                9               10                9
Canoeing/kayaking                                     6                5                4                5                5                7                5                7                8
Hunting                                               8                7                7                5                7                8                8                8                8
RV camping                                            8                8                6                7                7                9                9                9                8
Wilderness camping                                   NA               NA               NA               NA               NA               NA                8                8                7
Horseback riding                                      6                5                5                4                4                6                5                6                6
Motorcycling                                          7                5                6                4                4                6                5                6                6
Off road vehicle driving                              5                5                5                5                7                7                7                7                6
Target shooting                                       8                6                5                4                5                7                6                6                6
Tennis                                                9                9                7                8                5                6                8                8                6
Mountain biking                                       5                5                4                4                4                6                5                5                5
Personal water craft (e.g. jet skis)                 NA               NA               NA                3                5                5                5                6                5
Downhill skiing                                       6                6                5                5                5                4                4                5                4
Water-skiing                                          6                6                3                4                4                6                4                6                4
In-line skating                                      NA                4                4                5                6                5                5                6                3
Rock climbing                                         4                4                3                3                4                3                4                4                3
Rowing                                                3                2                1                2                1                1                2                2                3
Sailing                                               4                3                3                3                2                3                2                4                3
Snorkeling/Scuba diving                               4                3                3                3                3                4                3                4                3
Cross-country skiing                                  2                3                2                2                2                1                2                2                2
Snowboarding                                         NA               NA               NA               NA                1                3                2                3                2
Snowmobiling                                          2                3                2                1                2                2                2                2                2 
(NA) denotes not asked

                     AMERICAN RECREATION COALITION
                           sustaining members
  <bullet> America Outdoors
  <bullet> American Association for Nude Recreation
  <bullet> American Council of Snowmobile Associations
  <bullet> The Coleman Company
  <bullet> Family Motor Coach Association
  <bullet> Good Sam Club
  <bullet> International Snowmobile Manufacturers Association
  <bullet> Kampgrounds of America
  <bullet> National Association of RV Parks and Campgrounds
  <bullet> National Forest Recreation Association
  <bullet> National Marine Manufacturers Association
  <bullet> National Park Hospitality Association
  <bullet> Pennsylvania Recreation Vehicle and Camping Association
  <bullet> PriceWaterhouseCoopers
  <bullet> Recreation Vehicle Dealers Association
  <bullet> Recreation Vehicle Industry Association
  <bullet> ReserveAmerica
  <bullet> SGMA International
  <bullet> The Walt Disney Company
                          contributing members
  <bullet> Academy of Model Aeronautics
  <bullet> American Horse Council
  <bullet> American Motorcyclist Association
  <bullet> American Sportfishing Association
  <bullet> American Trails
  <bullet> Americans for Responsible Recreational Access
  <bullet> APN Media, LLC
  <bullet> Association of Marina Industries
  <bullet> BoatU.S.
  <bullet> Bombardier Recreational Products
  <bullet> Coachman Industries, Inc.
  <bullet> Domestic Sales Corporation
  <bullet> Family Campers and RVers
  <bullet> Florida RV Trade Association
  <bullet> International Association of Snowmobile Administrators
  <bullet> Jayco, Inc.
  <bullet> Leisure Systems, Inc.
  <bullet> Marine Retailers Association of America
  <bullet> Montana Department of Fish, Wildlife and Parks
  <bullet> Motorcycle Industry Council
  <bullet> National Alliance of Gateway Communities
  <bullet> National Ski Areas Association
  <bullet> National Sporting Goods Association
  <bullet> National Tour Association
  <bullet> Personal Watercraft Industry Association
  <bullet> Recreational Park Trailer Industry Association
  <bullet> SAMPO, Inc.
  <bullet> Seaway Trail, Inc.
  <bullet> Specialty Equipment Market Association
  <bullet> Specialty Vehicle Institute of America
  <bullet> States Organization for Boating Access
  <bullet> Thor Industries, Inc.
  <bullet> Warren Jones
  <bullet> Yamaha Motor Corporation, USA
                            general members
  <bullet> American Association for Leisure and Recreation
  <bullet> American Bus Association
  <bullet> American Forests
  <bullet> American Hotel and Lodging Association
  <bullet> American Power Boat Association
  <bullet> American Resort and Residential Development Association
  <bullet> Bicycle Manufacturers Association of America
  <bullet> Boating Trades Association of Texas
  <bullet> Champion Fleet Owners Association
  <bullet> Clean Beaches Council
  <bullet> Colorado Agency for Campgrounds, Cabins & Lodges
  <bullet> Cross Country Ski Areas Association
  <bullet> Employee Services Management Association
  <bullet> Experimental Aircraft Association
  <bullet> International Association for Amusement Parks and 
        Attractions
  <bullet> International Family Recreation Association
  <bullet> International Jet Sports Boating Association
  <bullet> International Kart Foundation
  <bullet> Kampground Owners Association
  <bullet> Maryland Association of Campgrounds
  <bullet> Michigan Association of Recreational Vehicles and 
        Campgrounds
  <bullet> Michigan Boating Industries Association
  <bullet> Mountain Outdoor Recreation Alliance of Western North 
        Carolina
  <bullet> National Association of Intercollegiate Athletics
  <bullet> National Association of Trailer Manufacturers
  <bullet> National Boating Federation
  <bullet> National Club Association
  <bullet> National Hot Rod Association
  <bullet> National Off-Road Bicycle Association
  <bullet> Outdoor Industry Association
  <bullet> Professional Paddlesports Association
  <bullet> Recreation Vehicle Indiana Council
  <bullet> Recreational Vehicle Aftermarket Association
  <bullet> Resort and Commercial Recreation Association
  <bullet> Southern California Marine Association
  <bullet> Special Recreation for disABLED International
  <bullet> Texas Recreational Vehicle Association
  <bullet> Western States Tourism Policy Council
                                 ______
                                 
     Statement of Joe Fassler, Chairman, National Park Hospitality 
                              Association
    Mr. Chairman and members of the Committee, my name is Joe Fassler. 
I serve as Chairman of the National Park Hospitality Association 
(NPHA), a volunteer position. NPHA represents businesses working as 
partners with the National Park Service in providing treasured memories 
for visitors to our parks. Our organization is delighted to extend our 
support for action by the Congress to help our national parks serve the 
nation well long into the future and applaud both the Administration 
and the Congress for recognizing that 2016 is an opportunity to unify 
and strengthen the efforts of all those who care about national parks.
    Companies--large and small--have long been partners in meeting the 
needs of visitors to America's national parks. Today, the National Park 
Service has 600 contracts in place under which appropriate lodging, 
transportation, food, guide services, retail operations and more are 
provided to 280 million customers annually. In total, concessioners 
serve some 50% of all park visitors and the 25,000 employees of the 
concessioners constitute a vital source of information and guidance to 
those visiting park units. The total value of goods and services 
purchased by park visitors now approaches $900 million annually, and 
the franchise fees and other payments to special accounts by 
concessioners generate $50 million annually in resources which remain 
available to the agency. In addition, concessioners provide even more 
than that annually in maintenance to federal structures and facilities, 
and in voluntary contributions of goods, labor and services. In many 
parks, concessioners lead major volunteer efforts to maintain trails 
and remove trash from roadsides, trailheads, shorelines and other 
areas. And concessioners are increasingly playing a key role in 
informing visitors about opportunities to contribute to park needs and 
collecting contributions under guest donations programs.
    NPHA is proud to represent leading national park concessioners and 
to focus on fostering active partnerships with the public and the 
government for the joint purpose of (i) preserving and protecting park 
resources, and (ii) accommodating visitor access to and enjoyment in 
our National Parks. As an association, our specific goals are to:

  <bullet> Build cooperation with the Department of the Interior and 
        the NPS at all levels;
  <bullet> Secure the active support of park visitors for protection of 
        park resources, for adequate visitor accommodations and 
        service, and for continued park access for all people;
  <bullet> Serve as a resource to Congress regarding relevant park 
        legislation; and
  <bullet> Assist the NPS with educational and interpretive programs 
        for visitors, teaching about the wonders and history of the 
        park and about stewardship responsibilities.

    Mr. Chairman, we are delighted to be among the growing list of 
organizations that have endorsed the National Park Service Centennial 
Initiative and are committed to contributing to its goals. Beginning 
more than 100 years ago, park concessionaires have regarded themselves 
as a partner with NPS in a goal that became codified in the agency's 
organic act in 1916: enhancing the visitor experience and preserving 
and protecting the resources of the parks unimpaired for future 
visitors. NPHA is particularly excited about the opportunity to add a 
new tool for the next century--a ``Challenge Fund'' which invites and 
supports partnerships and leverages available federal funds.
    In a letter to the Secretary of the Interior in May of this year, 
our association and the executives of top park concessioners pledged 
active support to the Centennial Initiative in three ways. First, we 
will utilize our direct contact and communications with park visitors 
to alert them to the Centennial and to invite their personal 
involvement in supporting and enhancing our parks. Second, as 
individual companies, we will work with local friends organizations and 
park managers to provide support for Centennial signature projects. And 
third, we are working together to identify programs which will provide 
national support to nationally-significant Centennial projects.
    NPHA is especially excited by the Challenge aspects of S 1253 and 
the potential to double--or more--federal funding. We believe that 
there is a willingness on the part of businesses and non-profit 
organizations to step up to this challenge.
    Mr. Chairman, our park concessionaire association has long believed 
that more can be done to reverse the decline in the park visitor 
numbers--and the loss of benefits to the public that are derived 
through those visits. The Centennial Initiative is the forum for action 
on this and other important needs. Yet our ability to participate 
through NPHA and as individual companies will be hampered unless the 
Congress also helps address an impediment to partnerships. Under 
Directors Order 21 and other policies, concessioners are greatly 
constrained from assisting the National Park Service. We are generally 
``prohibited sources''--not allowed to contribute directly to important 
park projects and programs. Working around this prohibition is often 
costly in dollars and time and undercuts opportunities for close 
alliances. It is time to address this issue and untie our hands.
    Mr. Chairman and members of the committee, NPHA is grateful to this 
committee and its Members for the enthusiasm you have shown to making 
national parks an integral part of the American lifestyle for the next 
100 years. We urge you to incorporate our suggestions and those of 
other leading recreation leaders and to move ahead swiftly to create a 
National Park Centennial Challenge Fund.
                                 ______
                                 
    Statement of Gary A. Kiedaisch, President and CEO, The Coleman 
                             Company, Inc.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to add my voice in support of the goals and key elements of 
S. 1253, a bill that would establish funding for the National Parks 
Service Centennial. I am here as an advocate for using the Centennial 
as a catalyst for new partnerships between corporate America and 
America's parks, partnerships which can be key forces in park 
revitalization and re-engaging the public with the outdoors.
    I'm a fortunate American because, as President and CEO of The 
Coleman Company, my passion for the outdoors coincides with my 
vocation. I frequently suggest to audiences, ``If you're never awakened 
on a crisp fall morning inside the warmth of a sleeping bag under the 
protection of a tent next to a babbling brook, you have missed one of 
life's greatest experiences. And if you have never shared this 
experience with a child, you have missed one of life's greatest 
opportunities.'' But this experience I describe in reality depends upon 
foot soldiers with the right skill sets, working cooperatively. We at 
The Coleman Company, in concert with an army of partners in the outdoor 
industry, in the retail trade and with organizations like the Boy 
Scouts and public park agencies, have been cultivating that skill set 
for more than a century.
    Beginning in 1900, the role of The Coleman Company has been to lead 
the charge in getting people outdoors. When you expose people to the 
great outdoors, our founder said, you're introducing them to the 
wonder, the healing powers and the joy of being close to nature. So 
many others have echoed that sentiment, most notably President Theodore 
Roosevelt. I am proud that The Coleman Company has championed this 
message throughout its 100+ years. One of my predecessors, Sheldon 
Coleman, came before Congressional panels in the 1960's--as well as 
other bodies, including the platform committees of both political 
parties--to urge creation of the Land and Water Conservation Fund. He 
also championed the expansion of the Dingell-Johnson Fund and creation 
of the National Trails System and the National Scenic Byways Program, 
and served in a leading capacity on the President's Commission on 
Americans Outdoors side by side with Senators Bennett Johnson and 
Malcolm Wallop. Yet today the messages of Teddy Roosevelt, and Sheldon 
Coleman, and of many of you, are falling on deaf ears--or at least 
distracted ears.
    Today, the average youth spends six and one-half hours every day 
tied to television and computer screens. Today, nearly 20,000 
additional American children are being diagnosed with diabetes 
annually. Today, we face an obesity epidemic for all age groups, 
according to the Centers for Disease Control and Prevention, and 
especially among urban and suburban youth. Today we have millions of 
youth diagnosed with Attention Deficit Disorder and medicated to 
control disruptions in classrooms. Today, we see unrelieved stress 
leading to drug abuse, roadway rage and abuse of loved ones. Today, we 
are grappling with the long-term healthcare costs of growing numbers of 
inactive senior Americans.
    And today, we know that regular doses of healthy active fun in the 
outdoors are a remedy--a cost effective and medically effective 
remedy--to these challenges that now jeopardize the quality of life for 
millions, render many U.S. businesses uncompetitive and pose daunting 
economic hardships for government agencies at the local, state and 
national levels.
                  a great opportunity for partnerships
    The National Park Service and other government entities should not 
be the only foot soldiers in this campaign to re-engage the public with 
the outdoors and harvest the physical, the mental and the spiritual 
benefits. That has been increasingly the pattern over fifty years, 
under Democratic and Republican leadership alike. And it has left us 
with an underfunded system of parks and other public places and 
declining visitations. It is time to be as bold as we were as a nation 
one hundred years ago, as bold as we were fifty years ago. It is time 
to invite the business community in as a partner to help provide the 
places and the programs that serve societal needs.
    The corporate world is a huge, untapped resource for both funding 
the outdoor places and the message about the benefits of these places. 
And it is at its best in getting messages out. In addition, business 
has the power to make getting outdoors into a national priority. That 
is a marketing challenge, the very skill set that business has in great 
supply.
    Engaging corporate America in this campaign will, without question, 
broaden public support. It will also help tap into a national structure 
for communicating the message from the local, to the regional, to the 
national parks level using the same tried and true business practices 
that have made this country's economy the strongest in the world.
    At The Coleman Company, our business is making the outdoors more 
accessible and more appealing to an ever more sedentary population. We 
provide the tools and the information for people to get to the fun of 
the outdoors faster and make the experience one that they'll want to 
repeat over and over again. The mandate of our company is to get people 
outdoors, having fun and reaping the physical and emotional benefits of 
an outdoor lifestyle. We're not alone. Corporate America has gotten the 
outdoor message, has been preaching it in its marketing messages and is 
ready to answer your call.
    In partnership with the National Park Service, key corporations can 
help make our National Parks relevant to today's Americans. Businesses 
know the consumer pretty well. Knowing the customer is the difference 
between success and failure. And it is important to remember that 
consumer spending on recreation in America today is some $400 billion 
annually and growing.
    At Coleman, our insights into America's leisure wants are delivered 
through the marketplace, and the success of our efforts is reflected in 
the fact that most families visiting national parks arrive with one or 
more of our products: a cooler or a lantern, a stove or a sleeping bag, 
a tent or one of our fishing rods, a Coleman canoe or an inflatable 
water tube or kayak.
    But our parks are largely disconnected from feedback from the 
marketplace.
    Case in point--visits to Shenandoah National Park have been 
declining significantly in recent years. One of several reasons--the 
park hasn't added the infrastructure that people seek. Mountain biking, 
one of the fastest growing categories in family outdoor activity, for 
example, has been ignored despite available administrative roads and 
underused trails. Corporate American knows how to fix a disconnect like 
that by linking park offerings with consumer demand.
    Forging this coalition is an opportunity for government to bring 
together a broad cross-section of American business resources, 
including representatives from a wide array of different sectors, each 
with a vested interest and each with unique contributions.
    Imagine recruiting executives from the country's most successful 
entertainment companies, healthcare companies, travel companies, 
outdoor companies and auto companies, as well as countless others, and 
setting them to the task of repositioning the National Parks as 
destinations, not just places to visit. I ran a four season Ski and 
Golf resort and know, all too well, the painful difference. Marketing 
is what drives business and marketing, along with park revitalization, 
will be the driving force behind this campaign's success.
    I recently learned that the average length of stay at many of our 
national parks is equal to the time it takes to drive across them. 
Think of if, visiting the natural wonders of Death Valley National 
Park, an area roughly the size of the state of Connecticut, for only 
three hours. What a waste. Want the solution? Ask business.
    One of the critical missions of this initiative is to remind the 
American public of their responsibility to be stewards of the land by 
using and not abusing it. Business applauds this and, through effective 
marketing, will make it possible for the parks to include stewardship 
education. Coupled with the right park offerings, visits and length of 
stay will increase. By identifying and funding new activities that will 
attract today's consumer to the parks, participation rises and everyone 
wins.
    I am not simply touting real effective partnerships as an academic 
exercise. The Coleman Company relies heavily on partners--partners like 
the Continental Divide Trail Alliance and the Appalachian Mountain 
Club, Wal*Mart and specialty sporting goods retailers. We combine 
dollars and manpower and other assets to serve seamlessly those people 
who seek positive memories of time in the Great Outdoors. And this is 
the template that the National Park Service should pursue as it 
approaches its Centennial and enters its second century.
    Partnerships will help us focus on and overcome the barriers that 
exist to connecting Americans with their lands--barriers like onerous 
insurance requirements placed on non-profits and profits seeking to 
help youth discover the fun of the outdoors at parks. In my discussions 
on Capitol Hill and with Administration executives over the last year, 
I have often referenced the model of the U.S. Olympic Committee (USOC) 
as a way to meld public and private forces into a force for the public 
good--in that case, equipping American youth to achieve greatness and 
stand on podiums to receive medals in international competition. And 
the USOC succeeds without commercializing sports, just as we need to 
succeed without commercializing parks.
    This Congress and this Administration are engaged in a dialogue 
that demands a win/win. We need to transcend divisions, including 
political divisions. And we need to open the doors to innovation. It is 
time to look closely at innovative efforts underway within many state 
park systems, including partnerships that replace investments of public 
funds with private capital. It is for us to adopt lessons learned from 
partnerships at Wolf Trap Center for the Performing Arts--a National 
Park Service unit--and the Smithsonian. We need to learn and adopt the 
best practices from partnerships like the Claude Moore Colonial Farm--a 
unit of the National Park Service that serves the public without a NPS 
staff.
                     recommendations on legislation
    I opened my testimony by applauding the legislation subject to 
today's hearing. It is easy to find elements of the bill to support. 
Yet I urge the committee to look for a derivative of this bill complete 
with some new elements as its work product.
    First, we applaud this truly exciting opportunity for individuals, 
non-profits and businesses to be invited to the table to help define 
the programs that deliver this revitalized outdoor experience and share 
the tab. This bill provide up matching funds that could boost annual 
funding to $200 million or more annually through 2016.
    Let me also express strong support for a change to the legislative 
proposals before you to capitalize on recent lessons. S. 1253 envisions 
a Centennial Fund with matching donations Far more preferable would be 
a fund from which matching grants could also be made. A model for this 
would be the Southern Nevada Public Lands Management Act, which, since 
2000, has received nearly $3 billion from the auction of surplus 
federal lands in Southern Nevada. It is used to award grants for annual 
projects in land acquisition, capital projects and environmental 
restoration. Typically, the projects it funds are leveraged, but these 
matching funds do not need to be deposited into a federal account and 
the projects can be achieved faster and often more efficiently than 
through traditional federal procurement efforts. We urge adoption of a 
similar model for the Centennial Fund, with project selection vested in 
the Secretary of the Interior and with oversight from a board created 
in the Centennial legislation.
    I am also told that the goals we share must be resolved in 
compliance with federal budgeting and appropriations guidelines. I live 
well outside the Beltway and don't profess to understand PAYGO and 
offsets. However, the support of America's business leaders for the 
Centennial Initiative will be strong if the Fund is truly a mandatory 
program through 2016, with a definite commitment of federal funds.
    Finally, I need to comment on the language in H.R. 3094 regarding 
project categories and categorical percentages. While some guidance is 
needed, I strongly urge the Congress to avoid highly prescriptive 
formulas that may force the National Park Service to ignore the public 
and partner input into the Centennial initiative. Far better would be 
regular Congressional oversight and consultation with the agency. My 
concern is increased by a reliance on categories and formulas in a 
similar house bill, H.R. 3094. In addition to these weaknesses, H.R. 
3094 also fails to include a category of vital interest to The Coleman 
Company and all recreation interests: needed investments in recreation 
infrastructure. We vastly prefer provisions now in S. 1253.
    A visit to a national park should not be defined by time spent 
looking through the windows of your personal vehicle or a park tram, 
and it should not be focused on time spent in a visitor center. 
America's parks need more and better trails, better campsites--
developed and backcountry--and better fishing piers and boat launches. 
The Coleman Company's interest and support of the Centennial 
initiative, and that of our partners, is focused on the recreation 
infrastructure of the parks.
    For the record, I strongly support use of the Centennial Fund to go 
beyond the physical aspects of parks. Attention to and investment in is 
needed to such non-physical needs of the parks as marketing, 
interpretation, events and outdoors activity training programs.
                                summary
    As a lifelong outdoor advocate working in a company whose name is 
synonymous with the outdoor lifestyle, I can think of nothing that 
would affect positive change faster in the use of these national 
treasures than to increase the number and diversity of interests 
engaged in their revitalization.
    The goals for this effort are clear. The benefits to the public are 
also clear. All that remains, as we say in business, is to get the 
right people on the bus, put them in the right seats, and decide where 
the bus should go.
    Today I thank you for including corporate America on the National 
Park Service Centennial Celebration bus as a partner in this important 
initiative. Its contributions will be many, its financial support will 
be significant and the result will be a healthier, happier and more 
outdoors oriented public. Together, we will make the National Park 
Service Centennial Celebration into a lifestyle changing reality for 
everyone.
                                 ______
                                 
       Statement of The National Trust for Historic Preservation
    Chairman Bingaman and members of the Committee, for more than 50 
years, the National Trust for Historic Preservation has been helping to 
protect the nation's historic resources since 1949. As a private 
nonprofit organization with more than a quarter million members, the 
National Trust is the leader of a vigorous preservation movement that 
is saving the best of our past for the future. The Trust applauds your 
leadership in this and many other areas under your panel's 
jurisdiction.
    For years the Trust has been calling attention to the National 
Parks and the need to support the National Park Service's (NPS) vast 
historic and cultural inventory. The preservation community is grateful 
for your leadership in considering ambitious legislation that includes 
mandatory new spending on our national parks with priorities for 
allocating these funds. This, along with partnerships that would foster 
philanthropic contributions, will provide long-needed resources for the 
parks as they enter their second century in 2016.
    Funding shortfalls over many years have been and continue to be the 
most serious problem affecting the national parks. According to the 
National Parks Conservation Association, every year the NPS is under-
funded by $800 million. This has resulted in deferred maintenance and a 
backlog of preservation needs that now exceeds $7.8 billion dollars. As 
a result, national park staff and managers can barely keep up with 
their charge to ``engage and inspire visitors, and protect natural and 
cultural resources.'' This magnificent network of public assets that is 
the envy of the world is in jeopardy and in immediate need of repair.
    Under these circumstances, the Trust urges Congress to create a 
protected, dedicated fund--separate from the amounts included in the 
regular appropriations account for the national parks--to address the 
many needs of the System. This would include monies to address deferred 
projects and programs, park priorities, and the work needed to ready 
the units prior to being in the national spotlight during their 
centennial. The dedicated fund should be established along with the 
necessary increases in national park funding that--as part of an 
ongoing, multi-year effort--would eventually make the System whole 
again and empower the Park Service to be the best stewards of America's 
natural and cultural resources for future generations.
    A creative component of the centennial initiative is a program to 
undertake centennial projects that are high-profile and signatory in 
nature. The Trust likes this concept as long as it is consistent with 
our position that it not take away from the basic funding Congress 
provides for fundamental park priorities. The Trust strongly urges the 
Senate to make it clear that this should be new money and not money 
that would offset existing appropriations or come from other national 
park programs. It should also direct that the Park Service maintain 
permanent staffing levels, and not substitute permanent employees with 
temporary workers for these types of projects.
    The Trust would also like to see this dedicated fund for centennial 
projects guided by a clear selection process with objective standards 
and prioritization criteria that also provides flexibility in the types 
of projects approved. These should fit into a holistic and 
comprehensive planning framework that takes into account a project's 
benefit to the entire System--this includes projects that would benefit 
the System's manifold historic and cultural resources along with its 
natural resources.
    Equally as important as protecting our natural treasures is the 
need to safeguard the nation's cultural heritage. Every one of the 391 
units in the System contains major cultural resources that the Park 
Service is charged with protecting and preserving for all Americans. In 
addition to historic structures, cultural resources also include 
culturally significant landscapes, archeological and ethnographic 
resources, and museum collections. Once these invaluable resources are 
lost, they are lost forever and cannot be replaced or interpreted for 
future generations if they disappear through neglect. Congress and the 
Administration could not make the System whole again in time for the 
centennial if the Park Service's historic and cultural resources are 
not provided for in this initiative.
    To place the urgency of the Trust's request into perspective, the 
Park Service has responsibility for the stewardship of America's most 
significant historic sites and museum collections. Sixty-two percent of 
the 391 park units managed by the NPS were designated as historic or 
cultural in nature by the Congress and every one of those contains 
important prehistoric and historic places or collections. When it comes 
to archeological sites, the Park Service has relatively little data on 
the number of archeological sites within their purview. And for those 
archeological sites for which they do have information, less than half 
are in good condition. In calendar year 2003, approximately 370 
incidents of vandalism or looting related to archeological or 
paleontological sites were reported.
    The Park Service's museum collections rival those of the 
Smithsonian, in size (105 million objects, specimens, documents, and 
images), scope, and significance, yet the Service has catalogued only 
approximately 48 percent of their collections. The collections include 
a wide variety of personal objects from our past, including Abraham 
Lincoln's cane--given to Frederick Douglass by Mary Todd Lincoln, 
General Robert E. Lee's mess kit and field desk, important American art 
like Thomas Moran's painting of the Yellowstone Valley, and even 
historic furniture. The picnic table used by President Johnson when he 
signed the Education Bill is just one example.
    Of the historic landscapes identified by the Park Service, nearly 
70 percent is in poor or fair condition. One example in that category 
is the farm, recreation buildings, and landscape at Sleeping Bear Dunes 
National Lakeshore in Michigan. This site represents the history of the 
area as it grew from farming and lumbering to a tourist destination in 
the 1920's and thus to designation as a National Seashore.
    The Park Service simply does not have the financial resources to 
collect the most basic data, to repair and maintain our nation's most 
important historic structures, archeological sites, historic 
landscapes, or museum collections in the System. All are irreplaceable 
elements of our shared American heritage and worthy of public support.
    S. 1253 would leverage additional philanthropic support though a 
required non-federal match program. Under this proposal, federal funds 
would be available in equivalent amounts contributed by non-federal 
sources up to $100 million per year. While the Trust strongly endorses 
any initiative that encourages partnerships between the Park Service 
and its partners to attract substantial levels of additional 
philanthropic support, it should be optional and not mandatory. Nearly 
half of the units in the System have ``friends groups'' that supplement 
federal budget resources with private giving. A mandatory match could 
place national parks with the most active friends groups at a distinct 
advantage over units with less active or inactive friends groups. The 
former would have a greater chance of being funded and could adversely 
affect the level of federal support needed by some of the more 
disadvantaged units. The initiative should also foster a more creative 
method of assessing in-kind contributions that would not exclusively 
relegate philanthropy to sending a check right to the Treasury alone.
    The Trust routinely helps raise non-federal matching dollars for 
national park projects as the leading private-sector partner in the 
Save America's Treasures (SAT) program. This is an area in which we 
have a great deal of expertise. We have secured over $55 million in 
preservation dollars for 100 federal grantees and other significant 
preservation projects and help find private funds to meet SAT's own 
federal challenge criteria. A very substantial part of this effort has 
benefited National Park Service projects such as Ellis Island, Valley 
Forge, Edison's Invention Factory, Mesa Verde, and George Washington's 
Tents at Yorktown. More than 19 percent (almost $11.4 million) of the 
SAT private funding has been designated for NPS sites and more than $12 
million in federal SAT challenge grants has been awarded to national 
parks.
    Mr. Chairman, in 2016, just under a decade from now, the Park 
Service will be 100 years old. In setting aside places of history and 
natural beauty, Congress expressed, in a very tangible way, its belief 
in the nation's future. It appointed the NPS as the steward of those 
391 parks and entrusted their care to its men and women. Yet the 
national parks and the Park Service's cultural programs have remained 
under-funded for the task. As we approach the centennial of the 
national parks, Congress and the Administration have the opportunity to 
remedy the situation by appropriating the funds necessary to maintain 
our cultural and natural heritage for America's public and the nation's 
posterity.
    The Trust applauds you and this Committee for working to make this 
country's national parks the best that they can be as they we prepare 
them for their next century. These nine years are a defining moment in 
meeting the challenges the System faces to accomplish this task. The 
Trust stands ready--along with the preservation community, park 
friends, and philanthropic organizations--to assist Congress and the 
Administration in any way possible to regain lost ground and make these 
units a global model for protecting America's cultural and natural 
treasures.

                                 <all>

      

</pre></body></html>
